<html>
<title> - WASSENAAR: CYBERSECURITY AND EXPORT CONTROLS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


              WASSENAAR: CYBERSECURITY AND EXPORT CONTROLS

=======================================================================

                              JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         INFORMATION TECHNOLOGY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                                AND THE

       SUBCOMMITTEE ON CYBERSECURITY, INFRASTRUCTURE PROTECTION,
                       AND SECURITY TECHNOLOGIES

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 12, 2016

                               __________

                           Serial No. 114-102

             (Committee on Oversight and Goverment Reform)
             
             
                               __________

                           Serial No. 114-49

                    (Committee on Homeland Security)

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  



         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
              
              
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
23-401 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1770677857746264637f727b673974787a39">[email&#160;protected]</a> 
                         
              
              
              
              
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK, MULVANEY, South Carolina       BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                 David Rapallo, Minority Staff Director
               Troy Stock, IT Subcommittee Staff director
                    Sharon Casey, Deputy Chief Clerk
                                 ------                                

                 SUBCOMMITTEE ON INFORMATION TECHNOLOGY

                       WILL HURD, Texas, Chairman
BLAKE FARENTHOLD, Texas, Vice Chair  ROBIN L. KELLY, Illinois, Ranking 
MARK WALKER, North Carolina              Member
ROD BLUM, Iowa                       GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               TAMMY DUCKWORTH, Illinois
                                     TED LIEU, California
                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York

                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
            Madeline Eda Matthews, Professional Staff member
                                 ------                                

SUBCOMMITTEE ON CYBERSECURITY, INFRASTRUCTURE PROTECTION, AND SECURITY 
                              TECHNOLOGIES

                    John Ratcliffe, Texas, Chairman
Peter T. King, New York              Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             Loretta Sanchez, California
Scott Perry, Pennsylvania            Sheila Jackson Lee, Texas
Curt Clawson, Florida                James R. Langevin, Rhode Island
Daniel M. Donovan, Jr., New York     Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)

               Brett DeWitt, Subcommittee Staff Director
                   John Dickhaus, Subcommittee Clerk
       Christopher Schepis, Minority Subcommittee Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 12, 2016.................................     1

                               WITNESSES

Mr. Vann H. Van Diepen, Principal Deputy Assistant Secretary for 
  International Security and Nonproliferation, Department of 
  State
    Oral Statement...............................................    10
    Written Statement............................................    12
Hon. Kevin J. Wolf, Assistant Secretary for Export 
  Administration, U.S. Department of Commerce
    Oral Statement...............................................    17
    Written Statement............................................    19
Ms. Phyllis Schneck, Deputy Under Secretary for Cybersecurity and 
  Communications, National Protection and Programs Directorate, 
  U.S. Department of Homeland Security
    Oral Statement...............................................    23
    Written Statement............................................    25
Ms. Cheri Flynn McGuire, Vice President, Global Government 
  Affairs and Cybersecurity Policy, Symantec
    Oral Statement...............................................    30
    Written Statement............................................    32
Mr. Iain Mulholland, Vice President, Engineering Trust and 
  Assurance VMWARE, Inc.
    Oral Statement...............................................    44
    Written Statement............................................    46
Ms. Cristin Flynn Goodwin, Assistant General Counsel, 
  Cybersecurity, Microsoft Corporation
    Oral Statement...............................................    51
    Written Statement............................................    53
Mr. Dean C. Garfield, President and CEO, Information Technology 
  Industry Council
    Oral Statement...............................................    64
    Written Statement............................................    66
Ms. Ann K. Ganzer, Director of Conventional Arms, Threat 
  Reduction, Bureau of International Security and 
  Nonproliferation, Department of State
    Oral Statement...............................................    74

                                APPENDIX

Representative Sheila Jackson Lee Opening Statement..............    96
2015-12-16 Members of Congress to Ambassador Rice re Wassenaar...   102
2015-07-20 Members of Congress to Wheeler-DOC re Wassenaar.......   113
2016-01-12 Mr. Beckerman-Internet Association re Wassenaar.......   116

 
              WASSENAAR: CYBERSECURITY AND EXPORT CONTROLS

                              ----------                              


                       Tuesday, January 12, 2016

                  House of Representatives,
            Subcommittee on Information Technology,
  Committee on Oversight and Government Reform, Joint with 
 Subcommittee on Cybersecurity, infrastructure Protection, 
 and Security Technologies, Committee on Homeland Security,
                                                   Washington, D.C.
    The subcommittees met, pursuant to call, at 2:23 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Will Hurd 
[chairman of the Subcommittee on Information Technology] 
presiding.
    Present for Subcommittee on Information Technology: 
Representatives Hurd, Farenthold, Walker, Blum, Kelly, 
Connolly, and Lieu.
    Present for Subcommittee on Cybersecurity, Infrastructure 
Protection, and Security Technologies: Representatives 
Ratcliffe, Marino, Perry, Clawson, Donovan, McCaul (ex 
officio), Richmond, Sanchez, Jackson Lee, Langevin, and 
Thompson (ex officio).
    Mr. Hurd. The Subcommittee on Information Technology of the 
Committee on Oversight and Government Reform and the 
Subcommittee on Cybersecurity, Infrastructure Protection, and 
Security Technologies of the Committee on Homeland Security 
will come to order. Without objection, the chair is authorized 
to declare a recess at any time. I would like to start off by 
recognizing my friend and the chairman of the Subcommittee on 
Cybersecurity, Infrastructure Protection, and Security 
Technologies, and fellow Texan, the Honorable Ratcliffe, John 
Ratcliffe. Over to you, sir.
    Mr. Ratcliffe. I thank the gentleman for yielding. The 
purpose of this hearing is to address the impact of the 
Wassenaar Arrangement, which was recently amended to propose 
export controls for cybersecurity products. I now recognize 
myself for an opening statement.
    The House Homeland Security Committee's Subcommittee on 
Cybersecurity, Infrastructure Protection, and Security 
Technologies and the House Oversight and Government Reform's 
Subcommittee on Information Technology meet today to hear from 
key industry and government stakeholders about the impact of 
the Wassenaar Arrangement, that it will have on American 
people, on American businesses, and on the cybersecurity 
industry.
    I first want to start off by thanking my friend, Mr. Will 
Hurd, the gentleman from Texas, for co-chairing this hearing. 
Today, we are doing what Americans would like to see more of in 
Congress. Two committees that don't often work together are 
able to, and happy to come together to tackle an issue that's 
extremely important and relevant to national security and to 
the security of individuals' personal information. Congressman 
Hurd and I share the belief that one of our core duties here in 
Congress is to bypass the jurisdictional roadblocks, and make 
real progress towards keeping our citizens safe.
    To the issue at hand, we know that private industry in 
America is excellent at responding to consumer demands. Many 
companies, including some of those here today, pride themselves 
on guaranteeing the security of their customers' personal 
information. Others represented here exist solely to help in 
securing that information. They also secure vital sectors of 
society such as critical infrastructure and the financial 
sector. Their success hinges, in part, on their ability to 
guarantee their own security. Today, I hope to hear from our 
witnesses on how the Wassenaar Arrangement in its 
implementation would affect these objectives.
    The Wassenaar Arrangement was established 20 years ago to 
apply to conventional arms and dual-use goods and technology. 
Changes made in 2013 sought to extend export controls to 
cybersecurity intrusion and surveillance software and 
technology.
    These changes were motivated by a desire to prevent 
authoritative regimes from repressing their people. This intent 
is noble. If the administration's implementation effort 
resulted in unified dissent from the technology and 
cybersecurity industries, from academics and researchers, the 
energy and financial sectors also voiced deep concerns. And 
they were echoed by civil society groups who said that the 
proposal could make communicating about security 
vulnerabilities almost impossible in certain cases. The Federal 
Government engages in countless ways with the American people 
and our international partners. When proposing actions, the 
government should, at a minimum, not do harm to its own people. 
I'm interested to hear from our government witnesses how they 
believe this arrangement will successfully deter the 
accumulation of digital weapons, which aren't constructed in 
factories, which don't need physical space for storage, and 
which don't depend on traceable means of transport.
    I hope to better understand how they believe this export 
control framework can be effectively applied to intrusion 
software. I agree that we should strive to limit dangerous 
technologies from falling into the hands of bad actors. But 
national security and Americans' personal security can't be 
sacrificed in the process. There are many ways the United 
States strives to combat human rights violators. And I hope to 
hear today why this route wasn't chosen over other options. As 
we can see by the variety and the size of our witness panel, 
the Wassenaar Arrangement has broad implications. Recent 
reports and the witness testimony today demonstrate that we are 
far from a consensus on this issue. The administration's top 
three stated priorities include, and I quote, ``protecting the 
country's critical infrastructure from cyber threats, improving 
our ability to identify and report cyber incidents, and 
engaging with international partners to promote Internet 
freedom, and building support for an open, interoperable, 
secure, and reliable cyberspace.''
    I assume that our government witnesses are well-versed in 
these goals and their prioritization. Yet, in reading the 
comments to the proposed rule and general thoughts on the 
cybersecurity section of the Wassenaar Arrangement, one sees a 
probable contradiction in the first two goals. Additionally, I 
think it's unlikely that this arrangement achieves the open and 
interoperable cyberspace that is in the public's interest. If 
we are to expect the cybersecurity provisions of this 
arrangement to be workable, we need to make sure that our 
stated intentions and actions are not contradictory. If we 
can't do that, I question why as a country we are agreeing to 
this updated arrangement.
    Just last month, Congress passed legislation to encourage 
the sharing of cyber threat information. Both the private 
sector and the Government stand to benefit from the increased 
flow of valuable cyber-threat information. Today, we need to 
hear whether the Wassenaar Arrangement would have a 
counterproductive impact on such sharing, and whether it would 
undermine the law that the President just signed. As a Nation, 
we advocate for human rights, and we assist those harmed by 
authoritarian regimes. However, we must, first and foremost, 
safeguard the security of our Nation and our citizens.
    I look forward to hearing from the witnesses about the best 
path forward and how we can come together to best protect the 
American people. And I yield back.
    Mr. Hurd. It's now my pleasure to recognize the 
distinguished gentleman from the great State of Louisiana, Mr. 
Richmond, the ranking member of the Subcommittee on 
Cybersecurity, Infrastructure Protection, and Security 
Technologies, for his opening statement. Mr. Richmond, you're 
recognized for 5 minutes.
    Mr. Richmond. Thank you, Chairman Hurd and Chairman 
Ratcliffe, also Ranking Member Kelly, for convening this joint 
hearing on U.S. rulemaking regarding cybersecurity technology 
issues in the Wassenaar Arrangement. I also want to thank our 
panel of witnesses today, both the government and industry 
representatives.
    The Wassenaar Arrangement consists of America's efforts, in 
collaboration with 40 of our trading partners, to put into 
place export controls for conventional arms and dual-use goods 
and technologies. As we know, dual-use goods and commodities, 
processes are technologies used primarily for civilian 
purposes, which can also be used to develop or enhance the 
capabilities of military equipment or initiatives. We find 
ourselves in rapidly changing times. And dual-use goods and 
technologies now encompass cybersecurity technologies, which 
are vital in protecting private, commercial, and governmental 
data, and protecting the operation of our information networks, 
both public and private. The 41 nations participating in the 
Wassenaar Arrangement agreed to include cybersecurity issues. 
And the United States has led the way.
    The Department of Homeland Security's Cybersecurity and 
Communications Office, within the National Protection and 
Programs Directorate, is the storehouse of a great deal of our 
Nation's civilian cybersecurity expertise. And I'm glad to see 
Dr. Schneck as one of our witnesses today, and look forward, 
especially, to her perspective.
    I found it helpful to frame the cybersecurity issues 
contained in the Wassenaar Arrangement as a series of 
questions. Does the proposed rule fulfill its intended goal? 
Does the proposed rule have any negative unintended side 
effects? Will modification of the proposed rule address 
concerns adequately?
    And, finally, should the Wassenaar provision be 
renegotiated, or an alternative be found? If the critics of the 
wording of the current proposed rulemaking are right, then I'm 
sure the answers will be no, yes, no, yes. According to a large 
number of professionals, the expert restrictions for the 
defined cybersecurity products and technologies in the rule may 
certainly reduce the likelihood of repressive governments 
obtaining surveillance technology through legal sources, but 
the criminal underground would not be subject to such 
restrictions. And such repressive regimes might switch to those 
suppliers.
    But let us not speculate. While my subcommittee does not 
appear to have any immediate legislative or oversight 
jurisdiction on this matter, testimony today from industry and 
government agencies involved, would help us to learn about the 
impacts of the proposed rule as drafted and how it will affect 
or impede not only research on the specifics of cybersecurity, 
but possible effects on the larger global cybersecurity 
community.
    Mr. Chairman, at this time, I would like to yield 1-1/2 
minutes to Mr. Langevin, who has been a leader and an expert in 
our caucus on this issue.
    Mr. Ratcliffe. [presiding.] The gentleman is recognized.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank the 
ranking member, Ranking Member Richmond, for yielding the time. 
And I want to thank both chairmen and ranking members of the 
committee for holding this hearing. I've been closely following 
the intrusion software additions since BIS proposed the 
original rule last May. In July, several of my colleagues 
joined me in voicing our concerns with that regulation as part 
of the public comment period. And last month, 125 members 
joined Chairman McCaul and me in a bipartisan effort in 
highlighting some of those thoughts in a letter to the 
President's National Security Advisor.
    Throughout this period, I've been thoroughly impressed by 
Bureau of Industry and Security's efforts to be as open as 
possible during the rulemaking process. And I commend you, 
Assistant Secretary Wolf, and your staff, for your willingness 
to listen to constructive feedback. I thank you for your work 
in that respect. I think all of us here today believe that 
intrusion software can be dangerous in the wrong hands. But the 
original proposed rule had many unintended consequences that 
must be addressed. I hope we will explore those barriers during 
this hearing, which could be detrimental to both our economic 
competitiveness and our national security, and that we will 
also come out with a clear understanding of the way forward and 
how to better incorporate stakeholder feedback from the outset 
in future rulemaking.
    With that, I would like to, again, thank Chairmen Ratcliffe 
and Hurd and Ranking Members Richmond and Kelly for addressing 
this very important topic. And I'll submit my full statement 
for the record. And I would yield back the balance of my time.
    Mr. Richmond. And with that, Mr. Chairman, I will yield 
back the balance of my time.
    Mr. Ratcliffe. I thank the gentlemen from both Louisiana 
and Rhode Island. The chair now recognizes the chairman of the 
Homeland Security Committee, my friend, the gentleman from 
Texas, Mr. McCaul.
    Mr. McCaul. I thank the gentlemen from Texas, both Mr. 
Ratcliffe and Mr. Hurd, for having this hearing today on a very 
important issue. It's consequential. Strengthening our Nation's 
cybersecurity is of the upmost importance right now, and will 
determine our Nation's position as a world leader in the 
future. The playing field for international conflict is 
constantly evolving. Cyber attacks can come from anywhere at 
any time, and without any prior notifications.
    As chairman of the Homeland Security Committee, keeping 
Americans safe is my primary concern. And that is no simple 
task in such a dynamic environment. Unfortunately, the 
amendment to the Wassenaar Arrangement would depreciate the 
research, development, and deployment of important tools that 
we all use every day to secure against cyber attacks.
    The United States has a duty to be a world leader. The 
establishment of a multi-national arrangement to restrict the 
trade of conventional arms and dual-use goods and technologies 
has only been possible through strong American leadership. To 
continue fulfilling this imperative role, the United States 
must ensure that such agreements support technically and 
practically intelligent policies on cybersecurity.
    If the matter at hand was simply a question of efficacy, we 
wouldn't be here today. If the only concern was that the 
Wassenaar Arrangement might have room for improvement, this 
conversation would be very different. But what has been 
violated here is the fundamental adage of do no harm. The State 
Department agreed to an arrangement that would restrict a group 
of information security tools and products. This agreement and 
the proposed implementation could hobble the entire 
cybersecurity ecosystem, as well as cross-border data flows, 
and global collaboration that support it. Weakening our cyber 
researchers and innovative service providers is bad enough. But 
as we have seen again and again, any weakness in our cyber 
posture will percolate to other industries and harm individual 
Americans.
    Furthermore, under the arrangement, participating States 
already exchange specific information on a regular basis about 
global transfers of certain goods and technologies. Part of the 
Wassenaar Arrangement is looking at that information to find 
dubious acquisition trends. I don't see any limitation on the 
ability of the Wassenaar Arrangement to pursue the stated goals 
of increased transparency without adding burdensome and 
counterproductive licensing requirements.
    I hope that the witnesses are able to speak today about why 
the addition of intrusion software language to the arrangement 
was preferred as the best means of achieving American goals, 
instead of other options, such as through sanctions, which 
would address bad actors more directly without unintended 
consequences.
    Lastly, the Homeland Security Committee worked hard in 
putting together and shaping information, sharing legislation 
which was signed into law in December. That legislation 
facilitates a sharing of cyber information between the Federal 
Government and the private sector to assist security experts 
and others in rapidly identifying and resolving vulnerabilities 
that threaten the security of our networks.
    We must not backtrack on this progress. It is a priority of 
the Homeland Security Committee to investigate whether the 
domestic execution of the relevant cybersecurity section of the 
Wassenaar Arrangement would obstruct positive collaboration on 
cybersecurity that protects American information and 
information systems.
    I hope the backlash received and the response here in the 
Congress will prevent the State Department from attempting to 
take momentous negotiations upon themselves without 
consultation from the stakeholders in the future. The 
administration must not ignore the serious, broad implication 
of the results. What we won't stand for is a de facto 
regulation of a thriving sector and cornerstone of American 
industry, an industry that provides the tools that we all, 
including governments, use to secure ourselves. I expect this 
hearing today will send an important message that the intrusion 
software language in the Wassenaar Arrangement is simply 
unworkable. We, in the Congress, expect that the administration 
will work to correct the serious issues in this arrangement 
moving forward. Again, I want to thank the chair and ranking 
member for holding this hearing. And I yield back.
    Mr. Ratcliffe. Thank the chairman. The chair now recognizes 
the ranking member of the Oversight and Government Reform 
Subcommittee on Information Technology, the gentlelady from 
Illinois, Ms. Kelly.
    Ms. Kelly. Thank you, Mr. Chairman. Welcome to the 
witnesses participating in today's hearing on export controls 
for certain cybersecurity tools. The export controls for 
intrusion and surveillance technologies agreed to at the 
Wassenaar Arrangement were intended to help prevent repressive 
regimes from obtaining and using intrusive technology against 
their own citizens. These are important human rights 
objectives. It is also critically important that U.S. 
cybersecurity policies advance our overall efforts to protect 
information and systems from cyber attacks and data breaches.
    Today's hearing is recognition of the fact that the Federal 
Government and private sector must work together effectively to 
thwart cybercrime. The Bureau of Industry and Security's 
proposed rule to implement the Wassenaar Arrangement's export 
controls on cybersecurity intrusion, and surveillance items 
could seriously hinder the cybersecurity industry and our 
national security. The language in the proposed rule would 
interfere with the ability of businesses and of the Federal 
Government to acquire and utilize cybersecurity tools that are 
critical to the security of information systems and data, and 
frustrate the real-time information sharing of vulnerability, 
which is relied upon to prevent or to stop a cyber attack.
    Going forward, BIS and its interagency partners should 
reconsider their policy approach to this rulemaking, so that 
the export controls do not negatively affect our Nation's 
ability to defend against cyber threat and the policy conforms 
with the broader U.S. cybersecurity strategy and national 
security.
    The Information Technology Subcommittee has held multiple 
hearings examining the nature of cyber threats and how to 
enhance the security of information and information networks. 
We have learned that no company or industry is immune from 
cyber attacks, and that cyber attackers are highly 
sophisticated, and constantly evolving their tactics.
    We are all aware of the major breaches that American 
companies, contractors, and government agencies have sustained 
in recent years. Given this persistent threat to information 
systems, it is critically important that the U.S. policies and 
regulations are designed to enhance the tools and capabilities 
that ensure the security of critical information targeted by 
cyber attackers.
    Last month, the Democratic members of this subcommittee, 
along with 120 other Members of Congress, signed onto a 
bipartisan letter to National Security Advisor Susan Rice, 
requesting the WhiteHouse's collaboration and advice in the 
development of export control policies for cybersecurity tools. 
In that letter, we expressed our concerns that the proposed 
rulemaking pertaining to export controls of intrusion software 
and vulnerability research could reduce the ability of private 
businesses and the Federal Government to defend against cyber 
threats and impair national security efforts.
    I would like to commend BIS for anticipating the need to 
assess the impact of the export controls on the cybersecurity 
industry and requesting public comment on the effects of this 
proposed rule. The Bureau is currently reviewing the 264 public 
comments it received.
    I look forward to hearing from today's witnesses on the 
impact of this proposed rule and discussing a path forward that 
achieves the human rights objectives of the export controls 
without negatively affecting innovation and research on 
cybersecurity tools and vulnerability. Thank you, Mr. Chairman. 
And I look forward to the witnesses' testimony.
    Mr. Ratcliffe. I thank the gentlelady. The chair now 
recognizes the ranking member of the Homeland Security 
Committee, the gentleman from Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you very much. Thank you, Chairman 
Hurd, Ranking Member Kelly, Chairman Ratcliffe, and Ranking 
Member Richmond, for your leadership in calling this joint 
subcommittee hearing today. I particularly want to thank the 
distinguished panel of witnesses before us today. You all play 
an important role in America's vital trade and business life. 
And I'm grateful you took the time to come help us understand a 
very complicated issue.
    The concept of cyber and information security is 
fundamental to our economy across all sectors, not only for 
business computers and networks, but also because the issue 
crosses the lanes of private, personal information, and 
policies that governance consideration. Cyber and information 
security are also issues that involve the ingenuity and 
initiative that makes American entrepreneurs and computer 
software scientists leaders in the world market.
    The Wassenaar Arrangement for the export control of dual-
use cybersecurity products is not only technically complex, but 
also involves moral and ethical considerations that must be 
taken into account.
    The United States economy is the largest in the world and 
the most creative, innovative, and productive. The strength of 
our engineers, scientists, and industrial leaders and across 
all sectors of American industry is unmatched. While the 
American worker is recognized as the most productive worker in 
the world, the electronic world dominates our business, 
information, security processes. And we depend most heavily on 
effective functioning of machine and computer system controls 
to achieve our high level of productivity. We cannot maintain 
these high levels of productivity without comprehensive and 
massive security efforts to protect not only machines and 
computers, but the electronic networks that we all depend on in 
our daily lives, ones that sustain the highest standard of 
living in the world for American families.
    The United States leads the world in the production of 
cybersecurity products and systems that not only produce the 
software applications that keep our economy running, but also 
the information security products that protect our vital 
personal data, business information, and communications 
network. The treaties, agreements, and arrangements we have 
with our international trading partners play a fundamental role 
in allowing our U.S.-made products to be exported easily and 
without interference. And those are often intricate and 
detailed provisions. I am very pleased we are holding this 
hearing to learn more about one of the most complex issues 
facing international trade today. I look forward to the 
testimony of our witnesses. With that, I yield back.
    Mr. Ratcliffe. I thank the ranking member for his remarks. 
The chair how recognizes the chairman of the Oversight and 
Government Reform Subcommittee on Information Technology, my 
good friend from Texas, Mr. Hurd.
    Mr. Hurd. Mr. Chairman, thank you. And I look forward to 
getting this institution focused on solving problems rather 
than jurisdictional issues. And I would like to thank Chairman 
McCaul and Chairman Chaffetz for their leadership and Ranking 
Members Thompson and Cummings for working on issues like this 
in a bipartisan fashion. It's great working alongside you, Mr. 
Richmond. And I would especially like to thank my good friend, 
Robin Kelly, for her partnership over the last year. And I'm 
looking forward to working together with you this year.
    This is an important topic, eight panelists, a bunch of 
chairmen, a bunch of subcommittee chairmen, a lot of ranking 
members. And one of the reasons is that it's been estimated 
that 97 percent of all Fortune 500 companies have been hacked, 
and the other 3 percent have been and just don't know it. And 
this is the size and scope of the cyber problems this Nation is 
facing. BlueCross BlueShield, Anthem, most recently, Juniper 
Networks and OPM, where the sensitive PII of 21.5 million 
Americans whose data was stolen are just a few examples of the 
ongoing digital threat our Nation faces every single day.
    Our adversaries are constantly targeting our information 
technology. And in doing so, they steal our intellectual 
property, healthcare data, and the most private details of the 
lives of millions of Americans. So when in May of last year, 
the Bureau of Industry and Security at the Department of 
Commerce published a draft rule implementing an export control 
regime on some of the most basic cybersecurity tools and 
methods, I became deeply concerned about the potential for 
unintended circumstances and consequences.
    The truth is that cyber weapons are not analogous to 
conventional weapons that the Wassenaar Agreement has been 
discussing and regulating since its inception. The same code 
that can be used to steal, disrupt, or destroy can also be used 
to protect. My concern, a concern shared by many of those 
companies and experts who submitted comments to BIS over the 
summer, is that the language of the proposed rule is so broad 
and vague that if implemented, it would do profound damage to 
our Nation's cybersecurity posture. The IT Subcommittee is very 
interested in the process that the State Department employed 
when adding these highly technical and complex cybersecurity 
items to the Wassenaar's export control regime, were experts, 
the cybersecurity industry, or the IT community at large, 
included in the discussions leading up to the agreement? If 
not, why? And how can we make sure they are consulted in the 
future so this kind of thing doesn't happen again.
    Cybersecurity practitioners have to move at the pace of 
technology. They cannot stop and wait to push a critical patch 
out to their international partners or clients who are left 
vulnerable while regulators delay and bureaucrats impose 
mountains of red tape. In the cybersecurity business, the clock 
starts when you know you've got an indicator of compromise and 
doesn't stop until you know it's been patched. In no time at 
all, a vulnerability can be exploited and data extracted. With 
months, hackers can take their time and do unspeakable damage 
to American interests.
    One of the reasons the IT Subcommittee exists is to examine 
the impacts information technology has on our laws, 
governmental structures, society writ large, and our regulatory 
approach.
    The question here today is not only whether or not the 
Wassenaar nations need to re-think and re-draft those cyber 
tool controls, but also, whether or not an export control 
regime is the correct institution to solve the problem of 
keeping dangerous digital tools out of the hands of despots. I 
thank Chairman Ratcliffe for his shared interest in this issue. 
And I look forward to today's discussion. And I yield back.
    Mr. Ratcliffe. I thank the gentleman from Texas. Other 
members are reminded that opening statements may be submitted 
for the record. And as noted by others, we are pleased today to 
have with us a very distinguished panel of witnesses on an 
important topic, including Mr. Vann Van Diepen, the principal 
Deputy Assistant Secretary for the Bureau of International 
Security and Nonproliferation at the U.S. Department of State; 
Ms. Ann Ganzer, the Director of Conventional Arms Threat 
Reduction for the Bureau of International Security and 
Nonproliferation at the U.S. Department of State; the Honorable 
Kevin Wolf, the Assistant Secretary for Export Administration 
at the U.S. Department of Commerce; Dr. Phyllis Schneck, the 
Deputy Under Secretary for Cybersecurity and Communications for 
the National Protection and Programs Directorate at the U.S. 
Department of Homeland Security; Ms. Cheri Flynn McGuire, the 
vice president for Global Government Affairs and Cybersecurity 
Policy at Symantec; Mr. Iain Mulholland, the vice president for 
Engineering Trust and Assurance at VMware; Ms. Cristin Flynn 
Goodwin, the assistant general counsel for Cybersecurity at 
Microsoft; and, finally, Mr. Dean Garfield, the president and 
CEO of the Information Technology Industry Council.
    Thank you all for being here today. The witnesses' full 
written statements will appear in the record. And at this time, 
I would ask all of the witnesses to stand and raise your right 
hand so that I can swear you in for your testimony.
    Do each of you swear or affirm that the testimony you are 
about to provide today shall be the truth, the whole truth, and 
nothing but the truth so help you God? Let the record reflect 
that the witnesses answered in the affirmative. The chair now 
recognizes Mr. Van Diepen for his opening statement.

                       WITNESS STATEMENTS

                STATEMENT OF VANN H. VAN DIEPEN

    Mr. Van Diepen. Thank you, Chairman Hurd and Chairman 
Ratcliffe, Ranking Members Kelly and Richmond, and members of 
the committees, for the opportunity to talk today about export 
control efforts in the challenging new area of cyber tools. As 
we've heard from you all, we hear almost daily about malicious 
cyber activities that disrupt businesses, compromise privacy, 
or threaten national security.
    Congress itself has also recognized the overall 
cybersecurity threat in legislation. The 2014 National Defense 
Authorization Act required developing an integrated policy to 
control the proliferation of what it termed ``cyber weapons,'' 
including through multilateral enforcement activities and 
diplomatic engagement. To be most effective, export controls 
should be multilateral. The Wassenaar Arrangement has the 
responsibility for multilateral national security export 
controls on dual-use items not related to weapons of mass 
destruction, such as cyber tools. This 41-country regime was 
established in 1996 to contribute to regional and international 
security and stability by promoting transparency and greater 
responsibility in transfers of conventional arms and related 
dual-use goods and technologies, thus preventing destabilizing 
accumulations.
    Upholding our international export control commitments is 
central to our ability to get other countries to uphold theirs, 
not just in Wassenaar, but in the nuclear, chemical, 
biological, and missile control regimes as well. Because these 
same cyber tools can also be used for beneficial purposes, such 
as identifying vulnerabilities and improving cybersecurity, we 
need to strike the appropriate balance in implementing such 
controls to promote national security objectives, while making 
sure that the controls' benefits clearly exceed any commercial 
or national security costs.
    Recognizing the challenge in implementing the cyber 
control, the U.S. Government took the uncommon step of going 
through a public notice and comment process. The comments were 
instructive. And we take them very seriously. It is clear from 
the comments received that the first version of the proposed 
U.S. rule to implement the Wassenaar control missed the mark. 
And the interagency continues to work through the concerns 
raised.
    Fortunately, the cyber control is included on the least 
sensitive portion of the Wassenaar list. This provides us with 
substantial flexibilities we can employ in the process of 
implementing that control nationally, just as most other 
Wassenaar members have done in already having implemented the 
cyber control for over a year without apparent controversy.
    We appreciate your committee's interest in this issue. And 
we are committed to working closely with all the other 
stakeholders in the interagency, as well as industry, and the 
other relevant external stakeholders, to seek a balanced way 
forward that meets our important policy objectives while 
addressing the concerns raised. Thank you.
    [Prepared statement of Mr. Van Diepen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Ratcliffe. Thank you, Mr. Van Diepen. The chair now 
recognizes the Honorable Kevin Wolf for his statement.


                STATEMENT OF HON. KEVIN J. WOLF

    Mr. Wolf. Thank you, Chairmen Hurd and Ratcliffe, Members 
Kelly and Richmond. My colleague from the State Department 
described well the background and purposes of the Wassenaar 
Arrangement. The U.S. Department of State leads the U.S. 
delegation to the Wassenaar Arrangement. But it is my agency, 
the Commerce Department's Bureau of Industry and Security, 
which is responsible for developing and administering the set 
of regulations, the Export Administration regulations that 
would implement the multilateral agreements that were just 
described. And in this case, the Wassenaar Arrangement for us 
pertains to dual-use items and some military items on the 
Wassenaar list.
    Other agencies, primarily the Department of Defense, 
participates in developing proposed changes to these lists, 
proposed controls to submit to the Wassenaar and other 
arrangements, deciding which ones to agree upon, and then 
review the regulations that we would implement to implement the 
agreement. And then Congress also has technical advisory 
committees that work with us on reviewing the proposed changes 
and proposals to be submitted to the various regimes.
    In December of 2013, the Wassenaar Arrangement approved new 
export controls on command and delivery platforms for intrusion 
software and related technology. Specifically, the entries in 
category 4 dealing with computers of the dual-use control list 
would control non-publicly available software that generates, 
operates, delivers, or communicates with intrusion software. 
And an intrusion software was defined as software designed to 
covertly gain access to a computer or other network device and, 
once inside, to extract or modify data or modify an execution 
path of the device to allow the execution of externally 
provided instructions.
    Related hardware and technology entries would control 
systems and equipment for generating, operating, delivering, or 
communicating with this intrusion software. And then, also, 
technology for developing the intrusion software was controlled 
as well.
    The original proposal for these controls came from another 
Wassenaar member in 2012. And the examples of the types of 
commercial hacking software intended to be captured by the 
control included those offered by Hacking Team from Italy, 
Gamma/Fin-Fisher from Germany, and Vupen in France.
    The controls were novel in that they were the first foray 
by a multilateral regime into the area of offensive cyber 
tools. The agreed-upon entries covering software intentionally 
excluded intrusion software itself from control, that is, 
certain kinds of malware, because of a general understanding 
that everyone with a mobile device might have such software 
unwittingly on their device and didn't want to expose them to 
perpetual liability. In beginning, however, the process at 
Commerce of drafting the regulation to implement the control, 
we grew concerned that despite several exclusions set forth in 
the definition of intrusion software, the scope of the 
controls, particularly the developmental technology controls, 
might be far broader in scope than originally understood by 
Commerce and its advisory committees.
    We particularly became concerned that the category 4 
technology control list entry in the draft regulation 
technology for the development of intrusion software could 
inadvertently significantly harm both U.S. Government and U.S. 
private sector cybersecurity programs and efforts if 
implemented.
    So in order to not take action that would inadvertently 
harm our Nation's ability to engage in critical cyber defense 
and related research work, we decided, in May of 2015, to take 
the unprecedented step of publishing these Wassenaar control 
list entries as a proposed rule with a request for private 
sector comments, rather than our usual step of publishing it as 
a final rule.
    Our hope was that the private sector comments would give us 
a better sense for whether the rule would have unintended 
impacts on our cyber defense and cyber research ecosystems. All 
dual-use controls have consequences and impose cost on the 
private sector. That's the nature of controls. But this one was 
different because the impact would not just be on the economic 
bottom line of a company, but on our Government's and our 
Nation's ability to share efficiently and quickly the types of 
technology necessary to conduct cyber defense and related 
research.
    Also, immediately following the publication of the proposed 
rule, we received questions from U.S. private sector and others 
in the U.S. Government about the intended scope of the 
controls. And in order to make sure that we addressed all of 
their concerns, we published a series of FAQs. As will be 
described later by our industry panelists and as is described 
in more detail in my testimony, we received over 260 comments, 
generally, all of them negative, describing several concerns 
that you've all summarized well in your opening statements.
    I want to make clear that the administration has not made 
any decisions regarding what the next step will be other than 
that the next step will not be a final rule. We're continuing 
to review the comments. We're continuing to work with our 
colleagues in government and industry with expertise in 
equities and cyber defense and related research. We welcome all 
views and all information, which is why we thank you for this 
hearing and whatever input or suggestions or advice that you 
have for us. So thank you very much.
    [Prepared statement of Mr. Wolf follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Ratcliffe. Thank you, Mr. Wolf. Dr. Schneck, you're 
recognized for 5 minutes.


                  STATEMENT OF PHYLLIS SCHNECK

    Ms. Schneck. Thank you. Chairman Hurd, Chairman Ratcliffe, 
Ranking Member Kelly, Ranking Member Richmond, and members of 
these committees, thank you for the opportunity to testify 
today. And thank you as well for all the support that all of 
your committee continue to provide to the Department of 
Homeland Security, most recently in the Cybersecurity Act of 
2015, which was discussed earlier. Because of that legislation, 
we will be able to, at the Department, with our industry 
partners, with our interagency partners, and global partners, 
share cyber threat information more rapidly, and in near real 
time.
    We appreciate the critical part that export controls play 
in ensuring that bad-intentioned people do not get their hands 
on good technology to hurt others. We also appreciate the 
concerns expressed by our partners and mentioned in previous 
testimony that show how some of these controls that are talked 
about today can actually potentially hurt cybersecurity 
efforts.
    So based on these concerns raised by industry and the 
potential impact on the Nation's cybersecurity, the Department 
of Homeland Security believes that the interagency together 
should reexamine the merits of the proposed rule. DHS plays an 
increasing role in cyber and in export control. And we seek a 
balance between getting to that right place in protecting dual-
use technology, and also incorporating the best expertise 
globally and protecting our cyber infrastructure from the very 
rapid change that we see and the sophistication of the actors 
of which I and others have testified before you.
    In my experience, before the 2-plus years I've spent at the 
Department, I was in private industry. I experienced product 
design. I experienced research. I experienced threat 
dissemination and sharing with both other private sector 
colleagues and companies, as well as our interagency partners 
in government, as well as around the world. That is the best 
thing that we can do to protect our cyber infrastructures is, 
as the Cybersecurity Act that you just gave us allows us to do, 
put threat pictures together, put indicators together, work 
with the smart people around the world at the speed of light, 
in the speed of cybersecurity that our adversaries are 
operating in.
    We hear a lot about the Internet of things. That means that 
almost anything you can see and touch has a computer processor 
in it in the future. That means that all those things are 
exposed to cybersecurity vulnerabilities. And that means we 
need the power of speed to put that story together, to 
disseminate it rapidly, to share research, and design products 
that protect better. We need the collaboration.
    In this environment, researchers and developers need to be 
able to work together with alacrity. They need that in the 
government. We need it in the private sector. And we need to be 
able to work together at the very speed and hopefully greater 
than that speed at which our adversaries are working today. A 
good example of how the Department works was in the Heartbleed 
episode in April, 2 years ago. The Department of Homeland 
Security received information from another government that 
there was a vulnerability in an open source encryption 
algorithm, as you well know. We were able to, through our 
United States Computer Emergency Response Team, disseminate 
that information internationally. Our CERT works, that's the 
Computer Emergency Response Team, our CERT works with over 300 
different CERTs internationally to get that information out 
there.
    Our cybersecurity companies and our private sector are 
global. Our government needs to work with other governments. 
The U.S. has taken a leadership role because of our ability to 
share and collaborate and push cybersecurity and cyber threat 
information out as far as we can. And companies and governments 
need these tools and need to be enabled to have the same 
alacrity with which our adversaries are enabled.
    Our adversary works, as I mentioned before, without 
lawyers. They have plenty of money. They have no boundaries. 
And as was mentioned earlier, we want to bypass jurisdictional 
roadblocks. We thank you for that. We in cybersecurity need to 
bypass competitive roadblocks. We need to bypass time 
roadblocks. And we need to be able to collaborate, again, 
without interruption.
    Cybersecurity is a joint effort, involving government, 
private sector, and academia. We welcome the chance to work 
together, our three agencies, our entire administration, the 
interagency, with all of our government partners to ensure, 
again, our global leadership in cybersecurity, our global 
ability to share this threat information. This is the main 
thing our adversaries cannot do. This is the product set that 
our companies can build for us. This is the ability for us as a 
government to leverage all that innovation in the private 
sector and push it forward.
    And our position is we would like to, as an interagency 
together, reexamine the merits of that rule by striking a very 
good balance, getting it right, ensuring that we have all the 
benefits of the hard work that's done in export control, but 
also ensuring that cybersecurity doesn't stop. Anything we do 
to delay the collaboration between any smart mind that we can 
find, human or machine, enables our adversary. So thank you. 
And I look forward to your questions.
    [Prepared statement of Ms. Schneck follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Ratcliffe. Thank you, Dr. Schneck. The chair now 
recognizes Ms. McGuire for her opening statement.


                 STATEMENT OF CHERI F. MCGUIRE

    Ms. McGuire. Chairman Ratcliffe, Chairman Hurd, Ranking 
Member Kelly, and Chairman Thompson, other distinguished 
members of the committee, thank you for the opportunity to 
testify today on behalf of Symantec Corporation. This hearing 
is extremely timely. And we very much appreciate your shining a 
spotlight on a vital issue that threatens the cybersecurity of 
not only the U.S. technology industry, but also that of all 
U.S. critical infrastructure companies and organizations that 
rely on cybersecurity.
    The proposed U.S. cybersecurity export regulation under the 
Wassenaar Arrangement would severely damage our ability to 
innovate and develop new cybersecurity product, conduct real-
time global research, and share information on vulnerabilities 
and exploits, as well as to test and secure global networks and 
new technology products.
    These new regulations would restrict the free flow of 
information across borders and impose major new export 
compliance burdens on all U.S. multinational industries. While 
the regulation grew out of well-intended concerns over the 
availability of intrusion and surveillance software to 
repressive regimes, the end result has swept in the core 
functionality of cybersecurity products and technology, and 
puts untenable restrictions on security testing and research.
    The fact is, this is not an export control on a few 
specific tools. It is a stringent new regulation on the entire 
cybersecurity industry, and our customers that would harm the 
economic and national security of the United States. 
Ultimately, it would leave every American less protected and 
vulnerable to cyber criminals and cyber terrorists.
    The regulations would capture many common and critical 
security tools. One of these is penetration testing. These 
tests are designed to stress systems just as real attackers 
would and expose weaknesses that would allow an organization to 
improve its defenses. Yet, under the proposed regulations, 
financial services, health care, energy, and other 
multinational companies would need export licenses merely to do 
security testing on their overseas systems and products.
    We have other concerns, but I feel compelled that I need to 
raise one more. As you all know, Congress and the 
administration have just acted to improve cyber threat 
information sharing. Yet, these regulations would undo much of 
that effort. As many of you have said today, cybersecurity 
knows no borders. But at Symantec, in our business practices, 
we also operate security operations centers around the world. 
Under these regulations, we would be required to apply for and 
wait for an export license before discussing much of our 
security research with a U.S. citizen who was working in one of 
our international centers. And the underlying rule does not 
even envision the accommodation of real-time machine-to-machine 
information sharing across borders.
    As we all know, cyber threats move at light speed, not 
bureaucratic speed. And as Chairman Hurd said, the clock starts 
ticking when an indicator of compromise is identified.
    To provide some perspective, Symantec's intrusion 
prevention systems blocked approximately 300 million exploit 
kits for our global customers in 2015, one of the exact 
technologies that would be restricted under this rule. 
Companies like ours rely on unfettered research and 
communication to innovate and develop the next generation of 
security technologies. At Symantec, our preliminary assessment 
showed we would need at least 1,000 new licenses. Today, we 
need less than a dozen. But the truth is that we've stopped 
counting, as the number is likely to go even higher. Coupled 
with an average lead time of 6 months to develop a license 
application, there is no doubt that these new burdens would 
cripple our ability to respond to real-time threats and cyber 
attacks.
    Another issue is that countries that are party to the 
Wassenaar Arrangement and have implemented the rule have taken 
vastly different approaches. There are multiple interpretations 
of the underlying language that have led to confusion, and 
implementation differs significantly from country to country. 
In fact, today, we at Symantec are holding up a product 
released in one country, while our lawyers try to figure out 
the next steps that should be taken. And we've seen other U.S. 
companies who are already pulling back on international 
research engagements because their attorneys say there is too 
much risk for cross-border research flows.
    The simple fact is that the rule will do little to stop the 
spread of malicious intrusion and surveillance tools, or 
curtail illicit hacking and intrusions in any way. In fact, the 
current rule would do just the opposite. It would handcuff 
security vendors and multinational companies from using all the 
tools available to them, while imposing no restrictions on 
cyber criminals. After hearing significant concerns, the 
Department of Commerce, to its credit, quickly withdrew the 
proposed rule. The conversations that have followed have been 
extensive and frank, but, ultimately, unsuccessful. This is not 
because of a lack of good faith on either side, but because of 
defects routed in the 2013 Wassenaar cybersecurity agreement.
    For this reason, we strongly recommend that the rule be 
remanded back to Wassenaar to be renegotiated and more narrowly 
defined. Of course, we look forward to continuing to work with 
Congress and our U.S. Government partners, to share our 
technical expertise on this very important issue to our 
industry and critical infrastructure in the U.S. Thank you for 
the opportunity to testify today. And I look forward to any 
questions you might have.
    [Prepared statement of Ms. McGuire follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Ratcliffe. Thank you, Ms. McGuire. The chair now 
recognizes Mr. Mulholland for his opening statement.


                  STATEMENT OF IAIN MULHOLLAND

    Mr. Mulholland. Chairmen Hurd and Ratcliffe, Ranking 
Members Kelly and Richmond, thank you for the opportunity to 
testify today at this important hearing. I'm Iain Mulholland, 
the head of the Engineering Trust and Assurance Group at 
VMware, and I am our senior security engineer. VMware is 
headquartered in Palo Alto, California, and is the fourth 
largest software company in the world, with 2014 revenues of 
over $6 billion and over 18,000 employees globally. Ironically, 
I may be one of the few people in the room, other than, 
perhaps, Ms. Ganzer, who has actually spent any time in 
Wassenaar, as my then-fiancee lived there in the 1990s. I spent 
a summer in Wassenaar reading books on computer security during 
my transition out of service in the British military.
    I now have almost 20 years' experience in the software 
security engineering field. I came to the U.S. in 2002 as one 
of the early members of the Microsoft Trustworthy Computing 
Group. And in 2011, I established VMware's Product Security 
Group.
    If implemented, the 2013 Wassenaar Arrangement could 
undermine our strong security posture and hinder our ability to 
adequately protect our customers and our products. It would 
introduce significant hurdles to rapidly receiving and sharing 
threat information, in particular, vulnerability exploit code 
that is critical to the swift development of security patches 
that protect software users, something that Chairman Hurd 
alluded to.
    This introduction of a requirement to apply for and obtain 
licenses during critical, time-sensitive responses to security 
vulnerabilities, which may already be under active 
exploitation, creates an asymmetry that is to an attackers' 
advantage, since, unlike the defender, the attacker has few 
such constraints.
    In my written testimony, I included three different 
examples that speak to the core challenges that implementing 
the 2013 rules would present not only VMware, but as some 
testimony has already alluded to, other U.S. technology 
companies. In the interest of time, I would like to share one 
of them with you. In the last 12 months, VMware has 
collaborated with several small security research organizations 
in Europe to remediate critical security vulnerabilities that 
they identified in our products. These vulnerabilities, if left 
unpatched, could have allowed a malicious attacker to take 
complete control over critical infrastructure. During the 
course of our investigations, researchers often provide VMware 
with sample exploit code that demonstrates the flaw to our 
security response team.
    Exploit code is often key in accelerating the speed with 
which our engineers are able to understand the flaw and develop 
a patch to protect our customers. If a picture paints 1,000 
words, then in the field of software security, the exploit is 
our picture. In one example, the security researcher was in 
Poland, his parent company, in the Netherlands, the 
coordinating VMware incident response team in the U.S. and 
Canada, and the team responsible for developing the security 
patch, in India. In addition, several of our U.S.-based 
employees were non-U.S. persons. In this example, VMware and 
the researcher would have required multiple licenses, one from 
Poland to the Netherlands, from Poland to the U.S., from the 
Netherlands to the U.S., from the U.S. to Canada, and several 
within the U.S. just to share information across cubical walls 
with non-U.S. persons based in the United States.
    Security vulnerability reports typically come through our 
industry standard security at VMware.com email address, using a 
security research protocol that has been in use in our industry 
for over 15 years. In 2015 alone, over half the security 
vulnerabilities reported to VMware came from individuals or 
organizations located in Wassenaar countries. In most cases, an 
export license would have been required for the researcher to 
report the security issue to us. A security researcher may not 
even have known who or where they were exporting an export to, 
since security at VMware.com is staffed on a rotational basis 
by a global team, half of whom are outside of the U.S. or non-
U.S. persons.
    It is improbable that these small research companies or 
individuals will take on the administrative and financial 
burden of applying for potentially multiple export licenses 
simply to report a security vulnerability. And as a result, 
this important source of information will dry up, or much 
worse, end up in the underground vulnerability market, leaving 
vulnerabilities unreported, unpatched, and under active 
exploitation.
    Moving forward, we recommend the BIS and the Department of 
Commerce continue to keep all options on the table. We applaud 
them for reconsidering their original draft, and hosting a 
series of public forums with a range of stakeholders to try and 
find a reasonable solution which we are pleased to participate 
in.
    Ultimately, however, the U.S. should return to Wassenaar 
and renegotiate the 2013 arrangement. We live in a global 
digital ecosystem that is not constrained by borders. We 
receive information about threats that affect the security of 
our products and our customers from all over the world. Even if 
the U.S. fixes its domestic policy, it will not enable us to 
continue to receive and share critical and timely information 
that affects the security of our customers on products from 
outside our borders. We must have the tools and resources on 
hand to act immediately and continue to provide world class 
secure software and services and ensure customer safety. 
Unfortunately, the 2013 Wassenaar agreement would undermine our 
ability to do so.
    I applaud the leadership of the committee for holding this 
hearing today. Thank you for the opportunity to testify. And I 
look forward to answering your questions.
    [Prepared statement of Mr. Mulholland follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Ratcliffe. Thank you, Mr. Mulholland. Ms. Goodwin, 
you're recognized for 5 minutes.


               STATEMENT OF CRISTIN FLYNN GOODWIN

    Ms. Goodwin. Chairman Ratcliffe, Chairman Hurd, Ranking 
Member Richmond, Ranking Member Kelly, Chairman McCaul, 
Chairman Thompson, members of the subcommittees, my name is 
Cristin Flynn Goodwin. And I'm assistant general counsel for 
Cybersecurity at Microsoft. I advise a wide range of teams on 
cybersecurity legal issues, and I manage Microsoft's government 
Security Program working with governments around the world. 
Thank you for convening today's hearing and your bipartisan 
leadership to support our Nation's cybersecurity. Microsoft has 
a deep commitment to cybersecurity. And I'm happy to be here 
today to discuss our perspective of the Wassenaar Arrangement's 
controls on intrusion software agreed to at the December 2013 
Plenary and the proposed U.S. implementation.
    As detailed in my written testimony, Microsoft believes the 
Wassenaar Arrangement's approach to controlling intrusion 
software and the broad export licensing requirements proposed 
in the U.S. would undermine security research, incident 
response, cyber collaboration, and product innovation. We agree 
with your assessment, assessed in a bipartisan letter to 
Ambassador Rice last month, that without a significant 
overhaul, these broad licensing requirements could seriously 
hinder national security.
    The intent of the drafters of these provisions was to 
prevent the export of surveillance software to criminal 
organizations or repressive regimes, which is admirable and 
important. Unfortunately, due to the very broad definition of 
intrusion software, extensive range of security technologies 
will now be subject to broad and burdensome licensing 
requirements in the U.S. If left unchanged, the proposed 
definition will have a chilling effect on the development of 
products and services and on the discovery of existing 
vulnerabilities. It will also significantly impact security 
incident response, and create new barriers for those seeking to 
secure themselves against increasingly persistent and 
sophisticated cyber threats. To demonstrate the impact, 
consider these three very common cybersecurity scenarios.
    First, a large critical infrastructure provider based in 
Germany is concerned that there is an attacker present on its 
corporate network and stealing sensitive information. The 
company calls in an American security company to come to 
Germany to help investigate whether the attacker is still 
present, and to use tools to find out what the attacker might 
be trying to steal or access without tipping them off.
    Second, a cybersecurity researcher with a small company in 
the United States finds a new piece of malware that hides 
itself on a user's machine, and then automatically deletes log 
files that indicate where an attacker is hiding on a machine. 
The researcher wants to share his analysis of the malware and 
collaborate with a software vendor in the U.S.
    Third, an American software company is developing a new 
product for commercial sale. Its internal security team, with 
members in the U.S., Australia, and Japan, wants to develop a 
tool that will help them test the product's security measures 
before it is sold.
    What do these scenarios have in common? Security response, 
collaboration, and product innovation stops until new export 
licenses can be processed, which can take weeks or even months. 
It also means that the attacker will be present for weeks on 
the German network. The malware identified by the researcher 
will continue affecting machines. And the software company will 
be delayed in its effort to develop a new product.
    Clearly, none of this is in the best interest of American 
cybersecurity. The United States must lead the effort to re-set 
this flawed approach internationally. Security experts should 
not have to pick up the phone in the middle of the night to 
call in an export control adviser to determine whether they can 
share certain technical information about an ongoing attack or 
as part of their day-to-day work, wait to collaborate with 
internal or external colleagues on security priorities. In 
today's global security environment, the ability to collaborate 
with peers and colleagues should be the default, not the 
exception.
    As both of your subcommittees know well, developing 
cybersecurity policy requires a deep understanding of the 
problem, broad input from experts, engagement with the 
executive branch and Congress, and a transparent process.
    Regrettably, to the detriment of cybersecurity, the 
Wassenaar Arrangement definition of intrusion software does not 
reflect this type of inclusive process. It must be 
renegotiated.
    In conclusion, Microsoft is a committed participant in the 
public-private partnership, and strongly encourages Congress 
and the executive branch to take the necessary steps 
internationally, and with our Wassenaar partners, to undo the 
overly broad and complicated export control requirements. 
Concurrently, the administration should suspend any related 
rulemaking efforts until a new agreement can be reached, making 
use of a robust, consultative process.
    Ms. Goodwin. I commend you for examining this issue today, 
and thank you for the opportunity to testify. I look forward to 
answering your questions and working with you on this important 
issue. Thank you.
    [Prepared statement of Ms. Goodwin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Ratcliffe. Thank you, Ms. Goodwin. The chair now 
recognizes the very patient Mr. Garfield for his opening 
statement.


                 STATEMENT OF DEAN C. GARFIELD

    Mr. Garfield. Chairman Ratcliffe, Chairman Hurd, Ranking 
Member Kelly, Ranking Member Richmond, members of the 
committee, on behalf of 64 of the most dynamic and innovative 
companies in the world, some of whom are also at this table, we 
thank you for hosting this hearing, inviting us to testify, and 
for your bipartisan approach on this issue, including the 
letter that you sent at the end of last year. I've listened 
carefully to the testimony of the other folks on this panel, 
and rather than repeating what they've already said so 
eloquently, I'll try to focus in on some of the questions that 
were implicit in your testimony, including why is this 
important? What should we do about Wassenaar? Can we simply 
revise the rules? And what are our recommendations or next 
step?
    As to the first, why is this important, our company, the 
companies that are members of ITI, are really the technology 
platform for the entire world. There is no sector or industry 
that's exempted from the implications of the Wassenaar 
Arrangement. Increasingly, cross-border data flows are the 
steam of the economic engine worldwide as well as innovation, 
the innovation ecosystem. The Wassenaar Arrangement impacts all 
businesses, whether they are technology-based or otherwise.
    Can the defects in the rules be cured? Our recommendation 
and answer is no. In spite of the best intentions of the 
drafters, the fundamental flaws in the proposed rules emanate 
from the arrangement itself. And I'll point to three areas that 
are--that speak to that.
    One, the presumptions, the problematic presumptions, around 
drawing lines between intrusion software, as well as drawing 
lines around IP network surveillance systems are found in the 
rules themselves, but are very much, in fact, grounded in the 
Wassenaar Arrangement as developed in 2013.
    Secondly, the question that Chairman Hurd raised and 
Ranking Member Kelly alluded to around whether you can actually 
deal with the fast-paced world of cybersecurity in cross-border 
data flows through the lumbering world that is limited by 
borders in export controls, the answer is no.
    Third, what is really needed here is a multinational 
approach, as a number of the members on this panel and the 
committee have noted, given the nature of our economy today, 
its heavy reliance on cross-border data flows, as well as the 
nature of cybersecurity that's been advanced by the work of 
this Congress through the Cybersecurity Act of 2015, as well as 
the Department of Commerce through NIST.
    Increasingly, the way to deal with cybersecurity issues is 
on a multinational basis through the sharing of cyber threat 
information. The Wassenaar Arrangement stands in the way of 
that.
    Relatedly, there are a number of nations that are a 
critical part of advancing cybersecurity that are not a part of 
the Wassenaar Arrangement, including Brazil, India, and China. 
So what do we do? Our recommendation is consistent with the 
private sector witnesses on this panel. Given that the root of 
the challenge is grounded in the 2013 developments in Wassenaar 
and the Wassenaar Arrangement, our recommendation is to go back 
to Wassenaar to cure those fatal defects. We say that not out 
of taking any pride in suggesting that the United States go 
back and renegotiate this agreement, but from our perspective, 
it's truly an opportunity to exercise leadership.
    There are a number of countries that are struggling with 
dealing with these same issues, and the United States has an 
opportunity to provide global leadership in dealing with what 
are truly complex issues.
    Secondly, it's important that whatever is done next is 
informed by experts, including many of those that are in this 
room, and some of who are not.
    I thank the committee, again, for this opportunity to 
testify. And I look forward to your questions and to working 
with you towards a solution. Thank you.
    [Prepared statement of Mr. Garfield follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Ratcliffe. Thank you, Mr. Garfield.
    The chair now recognizes himself for 5 minutes of 
questions.
    And I want to start, Ms. Ganzer, with you, because you were 
the only witness that didn't have a statement, and there was 
some intimation about--about your role, perhaps, in negotiating 
the Wassenaar Arrangement of 2013 and the inclusion of 
intrusion software. And so I want to take just a minute of my 
time to give you an opportunity to address whether or not 
that's accurate, or what your role was, if any?
    Ms. Ganzer. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here today. In my role as the Director of 
Conventional Arms Threat Reduction, I am the head of delegation 
for the Wassenaar Arrangement writ large for the United States. 
So I was in the chair for the United States when the control 
was adopted and agreed to on behalf of the United States. I was 
not responsible, specifically, in the room when it was 
negotiated. The administration has an integrated team of 
members from the interagency generally, including the Commerce 
and Defense Departments; Homeland Security may be there; Energy 
may be there; depending on what issue is being negotiated. But 
the administration and an integrated team negotiated these 
controls. And, so, there would have been an integrated team 
that agreed to the specifics.
    I would note that the control was intended to capture 
purpose-built suites of operated control--operator controlled 
software that extract--are designed to extract data from a 
system, modify a system or its data, or modify the system to 
execute a malicious operator's instructions without the systems 
owner's knowledge. That was what we intended to control, and 
that is what we thought we controlled. So the reaction from our 
industry colleagues here was quite a prize to us. And we 
continue to work the issue within the administration to--to do 
no harm, as some of the members mentioned in their statements. 
Thank you.
    Mr. Ratcliffe. Terrific. Thank you. That's helpful, Ms. 
Ganzer.
    So based on that, and you answered my next question, was 
based on the comments you heard today and the more than 300 
formal comments from industry, were you surprised? And you said 
that you were.
    As a follow-up to that, do you think those comments are 
justified?
    Ms. Ganzer. Sir, the industry knows what they are doing. 
So, absolutely. Many of the comments were very serious, went 
into very detailed analysis of the proposed rule, many proposed 
exceptions or different ways that we could address some of 
their concerns, and many of them were amplified, or reiterated 
through the process of meetings that the Department of Commerce 
hosted, in which I and several members of my team attended to 
listen to these concerns from industry.
    So, absolutely, they--they were, in many cases, right on 
the mark, and we are taking them very seriously.
    Mr. Ratcliffe. Terrific. Thank you.
    So let me follow up on the specifics. One of the comments, 
I believe, was from Ms. McGuire and others in the industry, as 
drafted, what keeps bad actors that the Wassenaar Arrangement 
is seeking to stop from purchasing unlicensed products, or 
purchasing products in a nonparticipating state?
    Ms. Ganzer. Thank you for that question. That's a difficult 
one to answer. As Mr. Van Diepen has already indicated, export 
controls are most effective when they are multilateral. And so 
this is why we work through organizations like the Wassenaar 
Arrangement when we establish controls, because, first of all, 
41 members of the Wassenaar Arrangement, including many of our 
allies who developed this sophisticated technology, commit to 
the controls in the Wassenaar Arrangement, and there are a 
number of other countries that unilaterally adhere to the 
Wassenaar Arrangement controls.
    So we do capture a good portion of the market by 
establishing controls in a multilateral form like the Wassenaar 
Arrangement.
    Mr. Ratcliffe. Okay. Well, I appreciate that.
    Do you think, or would you agree, that as written, there's 
a security consequence to the domestic implementation of the 
Wassenaar Agreement as some folks in industry have indicated?
    Ms. Ganzer. It--just to clarify, it was a proposed rule. 
Nothing has actually been implemented yet. But indeed, since we 
did not intend to capture many of the scenarios that were--were 
presented to us by industry, this is something that we need to 
fix, and we are working interagency, analyzing the comments, 
following up with them to determine what our next steps forward 
will be.
    Mr. Ratcliffe. So I appreciate that.
    So as my time expires, in terms of coming to that solution, 
you've heard some calls here from folks in industry for this to 
be renegotiated. And so my question to you is, why or what are 
the impediments, if any, to doing that? Because as I was 
understanding the arrangement, it meets every year.
    Ms. Ganzer. Well, first and foremost, we have not yet 
determined whether we need to do that. The interagency 
continues to work that issue. So saying we are going to go back 
and negotiate would be premature. But I would note that the 
Wassenaar Arrangement operates by consensus. All 41 members 
will have to agree, and 31 members have already implemented 
this control. So that is--we are also looking at how other 
countries are controlling this or have implemented it, and that 
will all be taken into account in the administration's decision 
on what we will do going forward when we--when we get there.
    Mr. Ratcliffe. Terrific. Thank you, Ms. Ganzer.
    My time has expired. The chair now recognizes the ranking 
member, Ms. Kelly, for her questions.
    Ms. Kelly. Thank you, Mr. Chair.
    As I stated in my opening statement, today's hearing is a 
recognition of the fact that the Federal Government and the 
private sector must work together effectively to thwart 
cybercrime and to support advancement in cyber defense and 
research.
    Mr. Garfield, you talked about meeting a multinational 
approach, sharing information, curing fatal defects, exercising 
leadership, and that leadership that we exercise needs to be 
informed by experts.
    What role do you see that Congress can play to ensure that 
the private sector's concerns pertaining to the proposed 
Wassenaar regulations are adequately addressed?
    Mr. Garfield. Thank you for listening so carefully. You've 
recounted my testimony more effectively than I did.
    I think the thing you can do you are, in fact, doing. So 
the letter that was sent in December making sure that there's a 
recognition that this is not political, it's bipartisan, and 
it's critically important. I think the second thing is, in 
fact, Congress insisting on getting real answers on what's 
going to happen next. And so continuing your oversight, I 
think, is an important part of the role that you can play in 
this area.
    You've done a lot through the bills that you've passed on 
cybersecurity, including the Cybersecurity Act of 2015, and we 
commend you for that.
    Ms. Kelly. Thank you. This rulemaking is an opportunity for 
the government and private sector to demonstrate that working 
together can produce positive results with no unintended 
collateral harm to cyber's defense capabilities.
    Ms. Goodwin, one area of your testimony focuses on the 
importance of the public-private partnership in cyber security 
regulation. I was wondering if you could, if possible, offer 
examples of private-public partnerships in cybersecurity that 
are working, and that could serve as an example for how the 
implementation of the Wassenaar Arrangement export controls 
might be revised to meet the government and private sector?
    Ms. Goodwin. Thank you, Ranking Member Kelly. There are a 
number of things that we can point to in the public-private 
partnership space. The collaboration and coordination that the 
private sector and companies like Microsoft has with the 
Department of Homeland Security's Computer Emergence Response 
Team, U.S. CERT, its collaborative way in which it comes 
together to triage incidents that the security community's 
conferences and hacking competitions and prizes to find the 
best way to disassemble the vacuum cleaner and put it back 
together, this is a robust community where the ability to 
exchange information with the government and with other 
companies is absolutely essential to our ability to secure 
ourselves and our customers.
    Imagine if Congress were to pass a bill without any 
constituent input, without any consultation with experts, and 
then once the bill had been signed into law, then to say, well, 
we'll work on the implementation after the fact. The reality is 
that we have a very robust public-private partnership that 
we'll have to leverage. In the event that additional export 
control ideas are floated in a community where the private 
sector may not play, we have to rely on our government partners 
to bring this to us and to triage them and to think about the 
implications and consequences before we take any position.
    This--Mr. Wolf said that this was an issue of first 
instance in his testimony. We had not attempted to tackle 
cybersecurity quite like this in the export control space, so 
this is an opportunity for us to rethink the process so that 
the public-private partnership can be brought to bear in these 
types of questions, so that we don't have to, like you said, to 
regulate first and ask questions later.
    Ms. Kelly. Thank you.
    Mr. Mulholland, as the engineer on the panel, do you think 
it would be sufficient that the administration, through a 
revised policy, puts in intracompany license exemption into a 
new rule?
    Mr. Mulholland. Thank you, Congresswoman Kelly, for the 
question. The simple answer to that is no. The reality is that 
might help our situation domestically, but the reality is, is 
that as a global company, I will seek threat information on my 
products from anywhere.
    You know, we heard a few minutes ago that there are 31 
countries have already implemented Wassenaar. The reality is, 
in my mind anyway, Wassenaar is not 41 countries in this space, 
it is 40 plus one. There is one country in this world and one 
country and not 41 who provides overwhelming leadership in the 
technology sector. The reason why I don't think we've actually 
seen any negative consequences from the other 31 is because, 
frankly, their expert ratings are not likely to be injurious to 
their industries, because, frankly, they don't have 
particularly vibrant industries.
    And I, you know, heard many of the members have commented 
on our leadership. Ms. McGuire cited an example where a U.S. 
company pulled out of Japan, pulled out of participating in a 
very long, established security research conference in Japan. 
Does that injure Japan's technology industry, or does it injure 
the U.S. industry? My vote is that it injures the U.S.
    So in short, no, BIS fixing the situation here in the U.S. 
does not fix the problem. The only way the problem gets fixed 
is to go back to Wassenaar, or perhaps, even concerning whether 
export controls is the right way to tackle this problem.
    Ms. Kelly. Thank you. And I'm out of time.
    Mr. Ratcliffe. I thank the gentlelady.
    At this time, I ask unanimous consent to insert into the 
record a letter from more than 100 Members of Congress to 
Ambassador Susan Rice regarding our collective concerns about 
the addition to the Wassenaar Arrangement to export controls of 
intrusion software that, in our opinion, could seriously hinder 
national security.
    Without objection, it is so ordered.
    Mr. Ratcliffe. At this time, the chair recognizes my friend 
and colleague from Texas, Congressman Farenthold.
    Mr. Farenthold. Thank you very much, Mr. Chairman.
    And I wanted to start out with Ms. Goodwin from Microsoft. 
We've talked a little bit about, today, about how some of this 
software is available from countries that aren't a party to our 
agreement. I know Microsoft is active in fighting software 
piracy as well. Even in the domestic, international stuff that 
we're seeking to regulate, software is pretty portable and 
pretty easy to pirate. Do you think there's a practical way we 
can actually put export control on software against, obviously, 
a hacker who would be typically unethical to begin with, or a 
state actor that's hostile to us? I imagine y'all struggle 
pretty hard from keeping Microsoft Word from getting pirated?
    Ms. Goodwin. That's a great question, Representative. Not 
only is it a challenge from a piracy standpoint, it's also a 
challenge from a legal standpoint. If you look at the 
implementation of the Wassenaar Arrangement thus far, I would 
point to the hacking team, which is a company that creates this 
type of intrusion software, and over in the gov--in Italy. And 
the Italian Government issued them a license to continue to 
sell this software.
    And when the hacking team was actually hacked itself, and 
its email was disclosed around the world, it was found that 
this software, which had been licensed by the government in 
Italy under this regime had been sold to regimes like Ethiopia 
and Sudan.
    And, so, part of the challenge in thinking about how do we 
apply export control in the space is what do we do when you 
have uneven, or different implementations that software 
actually can be licensed, and then sold and used in ways that 
are contrary to the original intent of the regulation? So it is 
extremely difficult to figure out how to solve a challenge like 
that.
    Mr. Farenthold. Let me ask you another question. It seems 
like we're focusing on regulating the tools rather than the 
people. I mean, I think that kind of goes along the--you know, 
not just even the developers, but the folks that are using it. 
I mean, where do you--where do you see--do you think that's a 
better idea, and do you think that's more doable?
    Ms. Goodwin. There are criminal laws in place today that 
can be used to leverage to pursue those that are violating 
cybercrime laws. The European convention on cybercrime is a 
multilateral tool and instrument that we can use as well. And 
so what we can do is focus more on prosecution and looking at 
negative implications of how these tools are used. Yes, 
absolutely.
    Mr. Farenthold. Thank you very much.
    And let's talk to, I guess, Ms. Ganzer from the State 
Department. As y'all's team was getting ready for the 
negotiations, did y'all go out and talk to companies like 
Microsoft or Symantec or VMware? What was your engagement with 
the industry?
    Ms. Ganzer. There's--thank you for the question, 
Congressman. There's an established process by which we share 
this information with the Commerce Department technical 
advisory committees who are made up of industry. I actually 
think it might be more appropriate----
    Mr. Farenthold. Kevin, do you want to--Mr. Wolf, you want 
to take that one?
    Mr. Wolf. Sure. Before agreeing to or submitting a proposal 
to Wassenaar or any of the other regimes, we share it with one 
of six technical advisory committees that are all volunteers, 
industry participants, experts in the area. And the original 
idea was shared with the relevant groups, and they didn't have 
any objection on the thought that----
    Mr. Farenthold. Did it come as a surprise to you that we 
got so many negative comments?
    Mr. Wolf. Well, by the time we received the comments, no. 
At the time we agreed to the control, it would have, because 
the original understanding was that it was a quite narrow, 
specific, a very small number of products that would be 
affected. And as we began to learn more and engage in the very 
industry output that is being discussed here, we began to get 
more and more concerned of unintended consequences, and that's 
why I said I think this is the first time we, Commerce, have 
actually pulled out from the implementation rule for a regime 
rule. And instead of gambling and potentially getting it wrong, 
went out to industry to confirm if our suspicions were correct, 
or maybe we were being too concerned, and then the comments 
came in.
    And that was actually part of the plan, was to see if we 
made a mistake, needed to do something differently at whatever 
level. So in a way, the process is actually working exactly as 
intended.
    Mr. Farenthold. Would you agree with that, Ms. Ganzer?
    Ms. Ganzer. Absolutely.
    Mr. Farenthold. And were you surprised with the comment, 
the number of comments as well or the----
    Ms. Ganzer. Much as Assistant Secretary Wolf said, by the 
time they came in, no. But when we first started this process, 
yes. Because we had thought, based on the comments from our 
Wassenaar partners, that we had negotiated a rather narrow 
control. Thank you.
    Mr. Farenthold. I see my time has expired.
    Thank you, Mr. Chairman.
    Mr. Ratcliffe. I thank the gentleman.
    The chair now recognizes the gentlelady from California, 
Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    And it's fascinating. Every time I come to a cyber issue, 
it's just incredibly fascinating. I remember--I'm from 
California, so, of course, we think that we have encryption and 
cyber as far cutting edge as possible.
    I remember, Mr. Chairman, 20 years ago, when I sat on the 
Armed Services Committee, we had instituted a military--a bloc 
on sending encryption out. And at the time, it was Adam Smith 
and myself were the only ones who were going, wait a minute, if 
we do that, we're going to lose encryption ability, or 
technology lead in California or the United States. And, in 
fact, we struggled, as Symantec and others will tell you, prior 
to the company, we struggled quite a bit until we were able to 
undo some of those restrictions.
    So you were surprised, even though you had--you thought you 
had industry covered through the system. So my question to you 
would be, have you gone back and rethought different levels you 
might have interacted at the time with respect to that so we 
don't have the same type of surprise again? Because these 
issues of export controls and what is used and what is the 
standard and who's setting the standard and who's got the keys, 
it's going to come up over and over and over again.
    So have you--have any of you gone back and rethought it, 
say, there might--where you could have interjected industry 
earlier, or was industry just sort of like, yeah, yeah, yeah? 
Sometimes that happens here in the Congress. You know, someone 
comes up to you, yeah, yeah, yeah, sign me on. Then you go 
back, and you think about it, and you have to pick up the phone 
and say, wait a minute, maybe what I agreed to isn't exactly 
what I was thinking at the time.
    Mr. Wolf. Sure. I would cite the fact that--as I just said, 
we pulled out of the implementation rule this specific topic 
only, and instead of just implementing it, shooting first and 
asking questions later, as was referred to earlier, asking for 
industry input before deciding.
    This is also highlighted the complexity of this topic in 
general, and we're always looking for new volunteers and 
participants with different areas of expertise to join our 
technical advisory committee. It's a volunteer organization. 
And so absolutely, on a going-forward basis, I plan to have 
more experts in this to help us review this, and to the extent 
this type of issue comes up in the future.
    In the short term, in the meantime, we have this particular 
issue. And, you know, with the great benefit of our colleagues 
from other parts of the U.S. Government and other industry 
participants and the actual comments that have come in, the 
goal is to think through all the various options and ways to 
address all the various concerns that were described today to 
achieve the objectives, but without the harm. So the short 
answer to your question is yes.
    Ms. Sanchez. Good. That's what we like to hear.
    Mr. Wolf. Yes, ma'am.
    Ms. Sanchez. Secondly, so some countries, or signatories to 
this, have already started to implement, as you say. And, of 
course, the big gorilla in the room is the United States, as 
you know, because we--I think, again, we still hold the edge on 
this area in the industry, and probably the industry itself.
    So what is the process to go back and renegotiate if we've 
already--if some countries have already started implementing? 
What would we--what does Congress need to--do you need Congress 
involved in this? Or is it just an administrative thing where, 
you know, the administration could go back and say, Hey, guys, 
we were kidding; let's sit down; we've got to redo this?
    Mr. Van Diepen. Well, Congresswoman, again, we're still, as 
an administration, working through the comments and then the 
various options we have for mitigating the problems and then 
consulting with industry. I think one of the things we'll do as 
part of that is consult with the Wassenaar, or the 31-plus 
Wassenaar countries that have already been implementing this 
control for a year without apparent controversy to find out 
from them well, what has their experience been? Once we sort 
of, you know, canalize the comments, how do you guys deal with 
issues like this and get from them ideas that could help us?
    Ms. Sanchez. And if that doesn't work, the reality is that 
we do need to renegotiate?
    Mr. Van Diepen. If at the end of the day, we think that we 
need to try to renegotiate the control, you know, then, at that 
point, you know, it's a diplomatic discussion amongst 41 
countries. And as noted, at the end of the day, any change will 
require consensus. All of them would have to agree. And for a 
number of them, and, presumably, their starting point is going 
to be, Well, wait a minute, we've been implementing this 
control for a year plus. We haven't had any problems. Why are 
you guys having problems? And so we'll have to have that kind 
of discussion going--going back and forth. But at the end of 
the day, it would require us to be able to convince the other 
countries to go along with some sort of modification.
    Ms. Sanchez. Great.
    Mr. Chairman, thank you for the time. And let me just say 
that I think this is an important issue and, hopefully, we can 
get a timeline out of the administration about where they might 
be and--so that we can make sure that we keep up with what's 
going on on this in case it needs to be renegotiated.
    Mr. Ratcliffe. I thank the gentlelady for her comments.
    And at this time, the chair recognizes the former U.S. 
Attorney from Pennsylvania, my friend, Congressman Marino.
    Mr. Marino. Thank you, Chairman.
    Good afternoon, ladies and gentlemen. Thank you for being 
here.
    Ms. Ganzer, can you clarify something for me, because I was 
running in and out to other--other hearings.
    What specifically was your role in this negotiation? Are 
you--were you the person that made the final decision in the 
Wassenaar Agreement?
    Ms. Ganzer. As I said, ultimately, it's my responsibility, 
Congressman, but, in fact, this had to be agreed across the 
administration. We all agreed to the control before we said 
okay.
    Mr. Marino. What part did--maybe Mr. Van Diepen--am I 
pronouncing that correctly? What part did you play in this, 
sir?
    Mr. Van Diepen. I am the Deputy Assistant Secretary 
supervising Ms. Ganzer's office. So among other things, would 
have approved the interagency guidance cable that set out the 
parameters of what proposals we could and could not agree to in 
the Wassenaar----
    Mr. Marino. Okay. Now it's starting to make sense.
    Mr. Wolf and Ms. Schneck.
    Mr. Wolf. No, I would like to concur. This is--all 
agreements with Wassenaar are as a result of consensus of the 
Departments of Commerce, State, and Defense. And so it wasn't 
just State, you know, unilaterally agreeing to it. It was the 
consensus of the departments participating.
    And as I said, we had doubts about it later, but at the 
time, it was a consensus decision of the administration.
    Mr. Marino. Okay. Ms. Schneck, am I pronouncing that 
correctly?
    Ms. Schneck. Schneck.
    Mr. Marino. Schneck. I'm sorry.
    Ms. Schneck. Close enough.
    Mr. Marino. Okay. What part did Homeland Security play in 
this?
    Ms. Schneck. So we provided technical insights. Our Office 
of Science and Technology holds our export controls portfolio, 
which includes Wassenaar. Where I sit, which is a different 
directorate, the national protection and programs directorate, 
provided some technical advice. We've had a challenge in 
finding a way to adopt export controls in a way that supports, 
again, our national security without affecting our homeland 
security cybersecurity operations that I oversee and the 
technology----
    Mr. Marino. Okay. Now, I heard Ms. Ganzer say that industry 
was consulted, and I think Mr. Wolf said industry was 
consulted. Is that true?
    Mr. Wolf. Through the technical advisory committee process, 
yes, not through a proposed rule, which would have more broader 
industry----
    Mr. Marino. Okay. Did State do that, have that discussion 
with industry? Then did Commerce have that discussion with 
industry? And Homeland have that discussion with industry?
    Mr. Wolf. No, it really wouldn't be State's process to do 
that. That's really the role of the Commerce Department to use 
its advisory committees to get industry input and then feed 
that out to the other departments.
    Mr. Marino. Okay. Now, you talked about, what was it, 30-
some or 40-some other countries have already implemented this 
rule?
    Ms. Ganzer. 31.
    Mr. Marino. My question is, what weight is that going to 
carry? You know, are these other countries going to have more 
weight in this? Do they have a bigger dog in this fight than 
our own homegrown U.S. companies?
    Mr. Van Diepen. Congressman, I'm not sure it necessarily 
ends up being a weight issue. Again, we are going to have to 
determine----
    Mr. Marino. Well, certainly, it's going to be a weight 
issue, because it involves jobs here in the United States. It 
involves security. It involves business in this country that 
create tens of thousands, hundreds of thousands of jobs. And 
the point I'm trying to get across is, I want enough attention 
paid to industry here in the United States than letting someone 
in Europe making the determination of how we're going to play 
football over here.
    Mr. Van Diepen. Absolutely, Congressman. And what I was 
trying to just say is the first instance will be, do we think 
we can come up with a U.S. method of implementation of the 
Wassenaar rule that is satisfactory? If that's the case, we 
have the entire unilateral national discretion to implement it 
that way, and no one else can gainsay us. So that would be a 
problem.
    Mr. Marino. Now, is this a still an open, ongoing process?
    Mr. Wolf. Absolutely.
    Mr. Marino. And are you going to communicate with four 
people at the end of the table here and others that I see in 
the gallery here about what is the most efficient way to do 
this and what is the best bang for the U.S.? Because I'm tired 
of us taking a back seat with this administration and worrying 
about what other countries want.
    So are you giving us your word here that you are going to 
talk with these people and not be disingenuous about the 
meetings with these people, about what they need to continue to 
provide jobs here in the U.S.?
    Mr. Wolf. Well, a couple--absolutely. And a couple of 
things. Unlike any other country, the U.S. Government went out 
and asked for industry comment through a proposed rule. No 
other government did that. We have had multiple open, public 
sessions with these attendees and many, many other countries to 
overtly, deliberately, aggressively ask their views and 
expertise. That process is going to continue over the course of 
2016----
    Mr. Marino. Okay. I see my time has expired. I would like 
to see an emphasis put on what we need here in the United 
States. And I trust that you will do that.
    And I yield back. Thank you.
    Mr. Ratcliffe. I thank the gentleman.
    The chair now recognizes the gentleman from Virginia, Mr. 
Connolly.
    Mr. Connolly. Thank you, Mr. Chairman. Welcome to a very 
large panel.
    Mr. Wolf, I want to go back to the beginning to understand 
the process. So the Wassenaar Arrangement involving 41 
countries, a lot of those members come to us saying, will you 
help? We think we need some kind of expert control over 
cybersecurity countermeasures. Is that correct?
    Mr. Wolf. That is correct, as part of the Wassenaar 
discussions.
    Mr. Connolly. Right. Right. Normally, the Wassenaar 
Arrangement involves things, right, defense, goods, and 
products?
    Mr. Wolf. Well, it involves physical things, commodities, 
both do or use and military, but it also involves software for 
those things and technology for those things.
    Mr. Connolly. Right. Okay. All right. Would you not agree 
that, in the terms or--in the context of export controls, 
controlling things, widgets, is easier than controlling thought 
processes and methods?
    Mr. Wolf. Yes.
    Mr. Connolly. Yes. So different challenge, what we're being 
asked to do. So you take that--not you, collectively, take that 
request, come up with something that helps us, because we're 
worried, your partners in Wassenaar are worried, and you come 
up with a draft rule. Is that correct?
    Mr. Wolf. Correct.
    Mr. Connolly. You submit that rule to public comment, 
including industry comment. Is that correct?
    Mr. Wolf. Well, normally, not. Normally with Wassenaar, we 
rely----
    Mr. Connolly. No. No. I was not asking that question. You 
did?
    Mr. Wolf. Oh, yes, absolutely.
    Mr. Connolly. I'm just trying to get the sequence.
    Mr. Wolf. Okay.
    Mr. Connolly. So let me ask the question. Why wouldn't--
because you had to pull the rule. So why wouldn't we have 
reversed that sequence and sought industry's input before we 
actually issued a draft rule?
    Mr. Wolf. At the time of the administration's agreement 
with the proposed rule, or the control within Wassenaar, our 
understanding and the understanding of our industry advisory 
groups was that the scope of the control was quite narrow and 
only would affect a very small number of products.
    So there was no need to do that, or something along those 
lines. It was only after the fact, as we began to learn more 
and see how other people read exactly the same words that we 
had read in 2013, that you can come to other very reasonable 
conclusions about the broad--the breadth and the scope and the 
impact of the control.
    Mr. Connolly. Right. And to your credit, you pulled them?
    Mr. Wolf. Yes.
    Mr. Connolly. But I guess I'm a little concerned about the 
process moving forward, because, okay, this time, we spared 
ourselves either an embarrassment or a significant, you know, 
problem. But I'm--I'm looking at something you said, Ms. 
McGuire. You were talking about the licensing requirement of 
the rule. And you said, asking a multinational corporation, who 
is at risk of a cyber attack, to wait months for a license, to 
be able to test its network defenses, or to receive the latest 
protections because security providers are hampered from 
communicating across borders is downright dangerous.
    Do you want to comment on that in terms of the process? 
Again, I fully commend, you know, the executive branch for 
seeing an error and pulling it. We don't always do that. Good 
work. But I'm still worried, though, that maybe the process 
could have been perfected so that we could have avoided even 
that. Your comment.
    Ms. McGuire. So, thank you for the question. And I think 
the process piece of this is--is critically important. And 
while the technical advisory groups within the Department of 
Commerce were consulted on this issue, no cybersecurity 
industry was consulted on this issue. There were none that were 
sitting on the advisory groups, to our knowledge, at the time.
    Mr. Connolly. Another problem with the process.
    Ms. McGuire. In addition, the advisory committee, our 
understanding was that the language that was part of the 
original proposal that the advisory committees saw was not the 
language that ultimately was adopted at Wassenaar.
    So while they may have--they may have said, we don't think 
there's going to be a lot of problems, what ultimately became 
enacted was not what was put in front of them.
    Mr. Connolly. That's why I suggested--I mean, I've always 
been a skeptic about export controls, frankly. I mean, maybe 
good intentions, but we don't live in that kind of world 
anymore. And trying to actually contain knowledge, very 
difficult to do.
    I know, Mr. Mulholland--are we Irish?
    Mr. Mulholland. I am, sir.
    Mr. Connolly. God bless him. Let's give him an extra--give 
him an extra little bit of time here.
    Mr. Ratcliffe. I am Irish, too. You get all the time you 
want.
    Mr. Mulholland. We'll take it.
    Mr. Connolly. And let's call it Irish fairness, right?
    Mr. Mulholland. I just want to join your point about 
things. So I used to be in the military, and actually was 
subject to a predecessor of the Wassenaar inspection and some 
Russian officers turned up and said, we have a list here that 
says you have 36 missile launchers. And so we dutifully took 
them through into our hangars, they pointed to 36, and life was 
good.
    The thing that we're trying to control today is this. And 
this is actually--Ms. Schneck mentioned partly. This is the 
code for the Heartbleed security vulnerability. I've blown it 
up for the sake of illustration, but it's actually 40 lines of 
code. If I want to proliferate that, I take it around the 
corner, and I photocopy it, or I email it, or I post it on the 
Internet. To your point about trying to control knowledge, 
we're trying to use, and, frankly, in my view, the wrong tool 
to control this. We're trying to take a physical construct 
that's worked pretty well for 20-odd years, and we're trying to 
drop it into the digital world. And, frankly, my view is that 
that simply does not work.
    Mr. Connolly. I couldn't agree with you more.
    Mr. Chairman, and I hope the Congress, on a bipartisan 
basis, will use this and other forums, Mr. Chairman, to explore 
a radical rethinking of what's in place right now. And it's all 
well-intentioned, but I just think we're in a new world. And I 
think we spend a lot of time, and industry is asked to spend a 
lot of time and money trying to comply with something that is 
not efficacious any longer.
    I thank the chair.
    Mr. Ratcliffe. I thank the gentleman from Virginia for his 
questions and his comments.
    The chair now recognizes the gentleman from North Carolina, 
Mr. Walker.
    Mr. Walker. Thank you, Mr. Chairman.
    I appreciate the panel being out today for an extended 
witness time, but we do appreciate all of you being here, as 
well as staff.
    Recently completing my first year in the House, it has 
opened my eyes to the problems that we have specifically in the 
cybersecurity arena. Also serving on the Department--or the 
Committee on Homeland Security, as well as the co-chair of the 
cloud caucus, has really sent me studying this issue and should 
cause us all great concern.
    Congress recently passed the cybersecurity legislation 
designed to facilitate the efficient and effective sharing of 
cyber threat data and indicators between the private and the 
public sectors.
    Ms. Schneck, the DHS has a big role to play in that 
process. The question for you is how would the proposed Bureau 
of Industry and Security rule, as drafted, impact that sharing?
    Ms. Schneck. So, thank you for your question. I would defer 
a lot of the legal around that to my colleagues from Commerce 
and State, but I'll give you a technical explanation. So the 
great legislation that you gave us enabled our operation 
center, the National Cybersecurity and Communications 
Integration Center, the NCCIC, to be the Center of Threat 
Indicator Collections with all the best use of private and 
civil liberties to get it right. But to get the cyber 
indicators together so that we can create a good contextual 
picture and push that information out to our, both public and 
private partners, and enable them to use that information.
    This is real time. This is machine to machine. And one of 
the worries that we're hearing from private sector and others 
is that this proposed rule would, in some cases, hamper the 
real-time sharing of information.
    Mr. Walker. Okay. Let me follow-up with you. If you need to 
defer, that's fine. I don't know, is there a limit on defers 
before you would have to buy somebody dinner, or drink? I don't 
know. We'll see. How would the proposed rule impact 
cybersecurity generally for U.S. companies? Frequent questions 
wrapped in one. What about critical infrastructure, government 
agencies? Isn't the rule going to put them at risk at some 
point?
    Ms. Schneck. Is that for me?
    Mr. Walker. Yes, it is, unless you need to defer.
    Ms. Schneck. So our responsibility is to protect all of 
that, the critical infrastructure, and then the Federal 
civilian government, and the private industry to include 
academia, State and local. We also share among 300--at least 
300 other governments' cyber information.
    As a scientist, I'll give you an operational discussion. 
And that is that the best cybersecurity protection we can 
provide is to understand the most quickly what's happening and 
make sure that when a cyber actor, this is exactly what an 
intrusion is, tries to execute their instruction on a machine 
they don't own, that machine knows, A, not to execute it, or, 
B, that it's happening so it can tell everybody else about it 
and not sustain an injury.
    Mr. Walker. Okay.
    Ms. Schneck. The ability, or the thought that that would 
get delayed in any of the ways mentioned today is detrimental 
to our cybersecurity.
    Mr. Walker. Thank you for the----
    Mr. Wolf, did you want to add anything to that?
    Mr. Wolf. No. But these are exactly points that--I guess, 
yes. These are exactly the points that were raised in 
overwhelmingly in the comments, which is why we're here and why 
we are continuing through the interagency process to try to 
come up with a solution to address that very concern.
    Mr. Walker. That's fair.
    Ms. Goodwin, I believe that technology is a tool I think 
most of us would agree, tool is a--technology is a tool that 
could be used for good or bad. In other words, it's not 
inherently one direction or the other. I think that's a pretty 
simple concept, but the behavior is.
    I'm intrigued by the idea that under Wassenaar, we are 
choosing to focus on the exporters of software tools instead of 
looking at the actual users of those tools and how those tools 
are utilized.
    Question for you: Do you think that, perhaps, we should be 
looking at a cybersecurity regulatory regime that focused on 
the users?
    Ms. Goodwin. We certainly need to be exploring the 
questions in a public-private partnership. The challenge of how 
do you deter criminal behavior? How you deter the bad effects 
of using surveillance software against those that we're trying 
to protect here? How do you stop a criminal from committing a 
criminal act? That's a challenge. But the reality is that 80--
81 percent of the security companies in the world are here in 
the United States.
    So regardless of the effect that it's maybe having outside 
of the United States, it's going to have a larger effect inside 
the United States. So we have to think about where the right 
place to regulate is, the use of the software, the intent of 
the criminal.
    Mr. Walker. Right. And if it is 80 percent, the technology 
is kind of interfused where it's hard to even separate from one 
country doing business with the other. And I hope--and I'll 
yield back with the rest of my time--the international 
community can influence or encourage this positive, and 
hopefully beneficial behavior.
    Thank you, Mr. Chairman. I yield back.
    Mr. Ratcliffe. I thank the gentleman.
    The chair now recognizes the gentleman from Rhode Island, 
Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. Before I begin my 
questions, if I could, I would like to submit my original 
comments to Department of Commerce, the rule and the concerns 
that I have.
    Mr. Ratcliffe. Without objection.
    Mr. Langevin. Thank you, Mr. Chairman.
    First of all, I want to, again, thank you, Secretary Wolf, 
at the Department of Commerce and BIS for bending over 
backwards to listen to concerns that have been raised here, and 
in other areas with respect to this rule. You've been very 
helpful and responsive to those concerns.
    Ms. Ganzer and Secretary Van Diepen, I hope it's very clear 
that you've hit a wall with respect to the way this was 
negotiated, what was negotiated, and there's pretty broad 
opposition going forward. So we are hoping that you are going 
to take that message and go back and get this right, probably 
by having to renegotiate.
    So is that a fair statement? You understand that we have 
broad opposition here?
    Mr. Van Diepen. I certainly understand your statement, 
Congressman. Again, I think our responsibility is to work hard 
and find the best solution that both gives us some ability to 
address the security concerns we're trying to address while 
avoiding these unintended consequences.
    Mr. Langevin. So with respect to criteria for the selection 
of dual-use items, dual-use goods and technologies to be 
controlled are those which are major or are key elements for 
the indigenous development, reduction, use, or enhancement of 
military capabilities. For selection purposes, the dual-use 
items should also be evaluated against the following criteria: 
Bond availability outside participating states; next, ability 
to control effectively with the export of the goods; next, the 
ability to make a clear and objective specification of the 
item; and, last, control by another regime.
    So to Ms. Ganzer and Secretary Van Diepen, with respect to 
clear and objective specification of the items, given the 
diversity of implementation we've seen in participating States, 
is the definition clear at the moment?
    Furthermore, the director of DARPA has stated that, and I 
quote, ``From a technology perspective, defense and offenses 
are indistinguishable,'' of you echoed by the State 
Department's own defense trade advisory group. Doesn't this 
preclude objective specification?
    Mr. Van Diepen. I don't believe so, Congressman. Everything 
on the Wassenaar dual-use list, as well as most of the things 
in category 2, the missile technology and control regime annex, 
the entire nuclear suppliers' group dual-use list, and the 
entire Australia group's chemical biological list are dual-use 
items. These are things that, again, can inherently be used, 
both for good purposes and bad purposes.
    And these have always included not only physical items, but 
software of various types. So there's a long, experienced, and 
multilateral export controls of being able to properly specify 
and properly control dual-use things, including dual-use 
software. And so, I--again, I think that, you know, our 
responsibility is to do our best to see if we can appropriately 
apply that expertise in this instance.
    Mr. Langevin. Okay. I would have some concerns with that 
answer, but let me go next.
    With respect to foreign availability, do you believe that 
intrusion software tools are not available and could not be 
developed in non-Wassenaar participating states like Singapore 
or China, which are home to four of the top 20 engineering and 
technology universities in the world according to QS rankings?
    Mr. Van Diepen. Congressman, I think the genesis of your 
statement comes from the factors for consideration that 
Wassenaar uses in judging items. And these are factors for 
consideration. It's not a checklist that every item must 
absolutely fulfill each and every one of the things. But we 
have to look at each of those things and decide whether the 
benefits or the control outweigh the--the costs or the 
difficulties of the control.
    So, for example, in the Australia group, we're controlling 
biological pathogens, many of which you can dig out of your own 
backyard. So there's ubiquitous foreign availability, but it's 
believed, and we've got a very solid track record, that it's 
been very advantageous to U.S. security to be able to maintain 
export controls on those items multilaterally with our 
partners.
    Mr. Langevin. And with respect to ability to effectively 
control export, do you believe that our regime has the 
capability to stop transfer of the goods or associated 
technology given that software can be sent across the globe 
without passing through a port of entry or other border 
checkpoint?
    Mr. Van Diepen. And, again, for over 25 years, we've 
controlled, multilaterally, a whole host of different types of 
software. And even recognizing the inherent challenges of 
software export controls, it has been felt that we've been able 
to craft controls where the benefits outweigh the costs. And, 
again, I would also point to the biological case, where, again, 
you're talking about individual cells. If you have two of them, 
they can self-replicate, so it's not all that different from 
cyber export controls, and yet, again, it has been felt that it 
has been advantageous for us to have those types of export 
controls.
    Mr. Langevin. Mr. Secretary, my time has expired, but I 
have to say, I respectfully disagree with each one of your 
answers. This is a checklist against which we should be--we 
should be evaluating on the states' value, and I think you've 
drawn the wrong conclusions. But my time has expired, and I'll 
yield back.
    Mr. Ratcliffe. I thank the gentleman.
    The chair now recognizes the gentleman from Florida, Mr. 
Clawson.
    Mr. Clawson. I appreciate y'all coming. I am just going to 
make one comment, and then I will yield to Congressman Hurd, if 
that's okay.
    First of all, when I looked at the participating countries, 
I don't see a lot of Asian competitors there. And I know what I 
would think if I was in private business, y'all. So you were 
not talking about the obvious. But I had a lot of competition 
coming from my--from Asia and India, and we can't be playing a 
different game than them, or we will lose.
    So I understand the need to protect the homeland, but 
there's something obviously wrong with this list if you're 
going to--if you were trying to influence me to join up, and I 
saw that list, after my technology had already been stolen a 
half dozen times, it would be a tough, tough, sell.
    Number two, with my facilities around the world, which we 
have, which I had, customers--you know, customers and 
facilities all on these lists, the foreign corrupt practice 
laws and everything, I don't even know how to do this. I 
wouldn't know how to implement it. It just feels, like, it hits 
me like a freight train here.
    And so--and, look, I spent a lot of time doing this. So, 
you know, there's got to be--you would have to put it in terms. 
I spent, you know, yesterday and today trying to think about 
these things and think to myself and my own business model, how 
would I do this? And I never really got there. How can I 
compete, take care of my customers, take care of my 
competitors, and my suppliers across all these different 
borders, and not break the law and keep my country safe? So if 
y'all are going to do that to sitting CEOs, I recommend that 
you simplify it so we can understand how we get to do all those 
things at the same time, because I spent a whole life doing it, 
and I ain't getting there just yet.
    I yield back to Mr. Hurd.
    Mr. Hurd. I thank my colleague from Florida.
    This is a lightening round, y'all. We have a lot more 
questions to get through, and we have to get to votes.
    Number one, I always like to start these off by saying 
something positive. Mr. Wolf, you and the Department of 
Commerce, great job in recognizing the problems and pulling 
back the rule. And as you've alluded to, that doesn't happen 
that often, and that should be commended. And I'm hearing you 
right, is the technical advisory committees open to--for people 
to join?
    Mr. Wolf. Absolutely. We're always looking for new 
volunteers.
    Mr. Hurd. Do you have one on cybersecurity?
    Mr. Wolf. We do. We did then, and we have more now.
    Mr. Hurd. Okay.
    Mr. Garfield, are you willing to help populate the 
committee?
    Mr. Garfield. Absolutely.
    Mr. Hurd. Are there other folks on this the panel willing 
to send someone to that committee?
    Voice. Yes.
    Mr. Hurd. Mr. Wolf, are you willing to take their input 
into thinking about what the best next action is?
    Mr. Wolf. Absolutely, whether it's as a tact member or just 
a member of the public, both.
    Mr. Hurd. What is the best next action? Are you going to 
leave here, you are going to say, that was a really long 
hearing, a lot of panelists, Congressman Ratcliffe was very 
insightful with his questions, and then--and then what happens?
    Mr. Wolf. Well, we'll continue discussing among the 
agencies, bring in not just the usual export control people, 
but those were expertise----
    Mr. Hurd. What forum? When is a decision going to be made 
about whether another proposed rule is going to be done, or you 
go back to Wassenaar?
    Mr. Wolf. Well, anything--everything is on the table, 
whether to go back to Wassenaar, another proposed rule with 
edits and clarifications or interpretations or carve out or 
exceptions.
    Mr. Hurd. Who makes that decision?
    Mr. Wolf. Well, ultimately, it depends upon the consensus 
of the agencies involved in the process, Commerce, State, and 
Defense. And then as the one responsible for the rule, I have 
the final say in terms of signing the rule out. And so the 
goal, over however many weeks or months we have to work on 
this, is to see if we can address all of the very legitimate 
concerns that have been raised today, and then the comments 
that you all have raised to come up with something that----
    Mr. Hurd. Copied. Thank you.
    Mr. Van Diepen, why do you care more about what the other 
31 countries are implementing than the people on this panel and 
the members of Mr. Garfield's organizations?
    Mr. Van Diepen. Respectively, sir, that does not correctly 
characterize my views. I care very much. I am a United States 
Government employee. I care about what the United States----
    Mr. Hurd. What do you think you are going to learn from the 
other 31 countries that have already implemented this rule?
    Mr. Van Diepen. The kinds of issues that have been raised 
here are generic. They don't uniquely affect the United States. 
And so to find out how other countries----
    Mr. Hurd. So how many of those countries that have 
implemented that rule have the same cybercrime laws that the 
U.S. has?
    Mr. Van Diepen. Unclear, and it's not clear----
    Mr. Hurd. How many of those countries have the same robust 
ecology of companies that focus on cybersecurity and 
practitioners of cybersecurity? I know the answer to this one, 
by the way, but I want to see if you know.
    Mr. Van Diepen. Well, I think, irrespective of the answer 
to that, all those countries are customers of these people, and 
information would have to go through----
    Mr. Hurd. The answer is zero.
    Mr. Van Diepen. --and they would have to be licensed----
    Mr. Hurd. Mr. Van Diepen, the answer is zero. You have a 
wealth of experience and capabilities here, and they are going 
to be the ones that tell you how this is going to ultimately 
be--should be--it's going to be impacted by this industry.
    Mr. Van Diepen. Which is exactly why we are consulting with 
them.
    Mr. Hurd. We are the ones that are protecting the rest of--
the rest of--we have to protect ourselves, and we are 
protecting the rest of the world's.
    Ms. Ganzer, you are in the chair.
    Ms. Ganzer. Yes.
    Mr. Hurd. If you were in the chair again in 2013, how would 
you--how would this have gone differently?
    Ms. Ganzer. If I had the information I had today, clearly, 
we would have probably renegotiated this differently. But given 
the information I had then, I would have made the same 
decisions.
    Mr. Hurd. When is the next time you are sitting in the 
chair? February?
    Ms. Ganzer. The Wassenaar Arrangement works on an annual 
cycle where final decisions are not made until December, but 
proposals are due in--in March and are debated throughout the 
year.
    Mr. Hurd. Have you done an industry guidance on this 
forensics rule that has been brought up? Is there not a rule on 
forensics?
    Ms. Ganzer. We don't have one under discussion right now. 
I'm not aware of one. If we agree to one that we are working to 
implement, I would have to--I would have to take that question 
back. I don't know, sir.
    Mr. Hurd. Mr. Wolf?
    Mr. Wolf. Well, the topic is of general discussion, but 
there isn't anything specific on the table to be able to 
respond to, no.
    Mr. Hurd. So the general topic of forensics, forensics 
tools, for use on understanding a person's network is going to 
be up for general discussion at Wassenaar at the next 
conversation?
    Mr. Wolf. Perhaps. I don't know what some other country 
might bring up, but it's not something that we have right now 
under discussion.
    Mr. Hurd. If this does come up, I would suggest you reach 
out to industry first and before you have to figure out what 
your left and right bound is for negotiation.
    I yield back the time that I do not have.
    Thank you very much, Mr. Chairman.
    Mr. Ratcliffe. I thank the gentleman.
    The chair recognizes my friend and colleague from Texas, 
Sheila Jackson Lee.
    Ms. Jackson Lee. Thank you so very much. We have a vote on 
the floor of the House, but I indicated that this was so 
important and provocative, I'm going to try to be as quickly as 
I can. And be as successful as the on-site kick was last 
evening.
    But let me try to get to the government. Mr. Wolf and our 
two distinguished State Department representatives, you have 
had a series of questions by members. Can I get a yes-or-no 
answer that you are going back to the drawing board. We know 
that there is an agreement that's going to be coming forward, 
suggestions and ideas, to give us an opportunity to go back to 
this issue again, Ms. Ganzer. But am I sensing that you 
understand that there needs to be a regulatory revisit on these 
issues?
    Mr. Wolf, yes or no, please?
    Mr. Wolf. Yes.
    Ms. Jackson Lee. Ms. Ganzer?
    Ms. Ganzer. Absolutely.
    Ms. Jackson Lee. Mr. Van Diepen?
    Mr. Van Diepen. On the rule, yes, ma'am.
    Ms. Jackson Lee. All right. Let me--and we have 
opportunities for the agreement itself coming--going forward. 
But let me--let me try to pointedly get back to our experts 
here and say, this reminds me of the DMCA, which Congress did 
pass, but negatively impacted encryption research. And 
interestingly enough, all of us are talking about encryption 
now.
    So I want to get to the point of saying where we are in 
terms of impacting you and the new partnerships. The President 
just had meetings with those in Silicon Valley. We know that we 
are intertwined together.
    May I start with Mr. Garfield to find out from you how much 
this will impact negatively research, and getting to the 
solutions of what we are interested in as you represent your 
vast number of participants?
    Mr. Garfield?
    Mr. Garfield. I'll be brief. It will impact significantly. 
And part of the frustration with the current course of the 
discussions is rather than recognizing that the issue at play 
here is not just the regulation of software, but the need for 
real-time reaction in response to cybersecurity, we're thinking 
about this as simply something we have faced before.
    That's why we need to think beyond the box of export 
control and really start over.
    Ms. Jackson Lee. Well, and I don't necessarily like it for 
starting over, but I like it for the forthright way that you're 
saying that we have an issue that needs serious attention.
    Let me just go quickly to Ms. Goodwin and Mr. Mulholland. 
And, Mr. Mulholland, I think it was you that said, all options 
are on the table. I have introduced H.R. 85, Terrorism 
Prevention and Critical Infrastructure and Protection Act, 
which deals with identifying threats, isolating damaging 
activities, but really, wants to work with industry on these 
elements. But if I can just get you to answer the question. As 
I said, I'm speaking fast only because my colleagues are here 
and we are voting. But to get to the point of what the impact 
would be if we do not fix it. And Mr. Mulholland as well, and I 
think we have Ms. McGuire there as well. And let me thank Dr. 
Schneck very much for the work she's done with us in Homeland 
Security.
    Ms. Goodwin.
    Ms. Goodwin. Ms. Jackson Lee, we get over 1,000 
vulnerability reports that come into Microsoft every year, and 
those need to be triaged. We need to work them with the finders 
from around the world and with our teams internally, and those 
internal teams sit all around the world. So we can be looking 
at 1,000 vulnerabilities times three, four, five export 
licenses just to triage vulnerabilities. That's not talking 
malware; that's not talking about new tools or new issues. 
That's just to be able to do our daily work.
    And so that would, from what we understand, eclipse the 
total volume of licenses that the Department of Commerce 
grants.
    Ms. Jackson Lee. That would not work.
    Mr. Mulholland.
    Mr. Mulholland. So I will echo the points that Ms. Goodwin 
made. We have a similar situation. But let me take a different 
angle. Security research is not going to stop. There are--Siri 
told me there are 206 countries in the world. There's 41 in 
Wassenaar. My math tells me that's 165 countries that are not 
in Wassenaar, perhaps two-thirds of software developers in the 
world. Software security research will continue, but it will 
happen in three different ways.
    Mr. Mulholland. Either security researchers will finally 
just give up, it's just too hard. That's not good for us. They 
will publish the information on the Internet because there is a 
carve-out, from my understanding, that if the information is 
made public on the Internet, effectively open-sourced, then it 
does not require a license. That doesn't help me because the 
bad guys have just found out about the issue at the same time I 
have. That's not good for us. It's not good for U.S. companies. 
Or the third one, which, frankly, 20 years of working in this 
industry and the cynicism that can develop with that, these 
exploits will, frankly, end up on the black market. And there 
will be cottage industries developing in some of the countries 
that have been mentioned that will spring up. And these 
oppressive regimes, the only impact that they will find is that 
they will have to spend more money because they will be going 
to the highest bidder----
    Ms. Jackson Lee. Thank you. I want to get Ms. McGuire. And 
I'm going to let Dr. Schneck, Ms. Schneck, just finish, that 
Homeland Security is committed to working, too. Ms. McGuire, in 
this brief moment.
    Ms. McGuire. I will just echo that the rule as proposed 
here in the United States will not do anything to deter the 
availability of these tools. And I will just finish by saying 
at the end of the day, the underlying language in the Wassenaar 
Arrangement on cybersecurity is flawed and must be 
renegotiated.
    Ms. Jackson Lee. Thank you. Ms. Schneck, Homeland 
Security----
    Ms. Schneck. Bottom line, we have to, together as 
interagency, with all of our industry partners and any input we 
can possibly get absolutely revisit this proposed rule.
    Ms. Jackson Lee. Let me thank the chairman and Ms. Kelly so 
very much for your kindness. And may I ask unanimous consent, 
Mr. Chairman, thank the witnesses, to submit into the record 
from the Internet Association a letter dated January 12, 2016.
    Mr. Ratcliffe. Without objection.
    Ms. Jackson Lee. Thank you so very much, Mr. Chairman.
    Mr. Ratcliffe. I thank the witnesses for their testimony. I 
can pretty much assure you that at least some members will have 
some additional questions for the witnesses. And we will ask 
you to respond to those in writing. The hearing record will be 
open for 10 days. Without objection, the subcommittees stand 
adjourned. Thank you.
    [Whereupon, at 4:27 p.m., the subcommittee was adjourned.]

                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
